OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
FINANCIAL STATEMENTS FOR
FISCAL YEARS 2013 AND 2012
AUDIT REPORT NO. 0-000-14-001-C
DECEMBER 16, 2013




WASHINGTON, D.C.
   Office of Inspector General

   December 16, 2013

   MEMORANDUM

   TO:                  Kent Kuyumjian, Acting Chief Financial Officer

   FROM:                Melinda Dempsey, Acting AIG/A

   SUBJECT:             Audit of USAID’s Financial Statements for Fiscal Years 2013 and 2012

   The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID’s Financial
   Statements for Fiscal Years 2013 and 2012. Pursuant to the Government Management Reform
   Act of 1994, Public Law 103–356, USAID is required to prepare consolidated financial
   statements for the fiscal year. Office of Management and Budget (OMB) Circular A–136,
   “Financial Reporting Requirements,” requires USAID to submit a Performance and
   Accountability Report, including audited financial statements, to OMB, the Department of the
   Treasury, and the Government Accountability Office by December 16, 2013. In accordance with
   the requirements of OMB Circular A–136, USAID has elected to prepare an alternative Agency
   Financial Report with an Agency Head Message, Management’s Discussion and Analysis, and
   a Financial Section.

   OIG has rendered an unmodified opinion on USAID’s principal financial statements for fiscal
   years 2013 and 2012. With respect to internal control, we identified one deficiency that we
   consider a material weakness. The material weakness pertains to USAID’s process for
   reconciling its fund balance with the U.S. Treasury. Additionally, we identified four significant
   deficiencies in internal control. They pertain to USAID’s processes for (1) deobligating
   unliquidated obligations, (2) accounting for advances, (3) supporting payroll deductions, and (4)
   reconciling intragovernmental transactions.

   We found no instances of substantial noncompliance with federal financial management
   systems requirements, federal accounting standards or the U.S. Standard General Ledger at
   the transaction level as a result of our tests required under Section 803(a) of the Federal
   Financial Management Improvement Act of 1996 (FFMIA), Public Law 104-208, Title VIII (31
   USC 3512 note). However, we reported one significant deficiency in the Agency’s annual
   Federal Information Security Management Act report, No. A-000-14-001-P dated October 15,
   2013, which we classified as an instance of substantial noncompliance with FFMIA as required
   by OMB Bulletin 14-02, “Audit Requirements for Federal Financial Statements.”

   This report contains four recommendations to improve USAID’s internal control over financial
   reporting.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov/
We have considered your response to the draft report and the recommendations included
therein. We acknowledge your management decisions on the recommendations. Please forward
all information to your Office of Audit Performance and Compliance for final action. (Appendix II
contains USAID’s management comments.)

We appreciate the cooperation and courtesies extended to us during the audit and look forward
to working with you on next year’s audit.
CONTENTS
Summary of Results ..................................................................................................... 1

Background ................................................................................................................... 2

     Statements ............................................................................................................... 2

     Audit Objective ........................................................................................................ 2

Independent Auditor’s Report ...................................................................................... 3

Report on Internal Control............................................................................................ 5

     Internal Control Over Financial Reporting............................................................. 5

     Material Weakness .................................................................................................. 6

     USAID Does Not Reconcile Its Fund Balance With Treasury
     Account With the U.S. Treasury and Resolve Reconciling
     Items in a Timely Manner .......................................................................................... 6

     Significant Deficiencies .......................................................................................... 8

     USAID’s Process for Deobligating Unliquidated Obligations
     Needs Improvement .................................................................................................. 8

     USAID’s Process for Accounting for Advances Needs
     Improvement ............................................................................................................. 9

     USAID Could Not Provide Documentation to Support Payroll
     Deductions .............................................................................................................. 11

     Intragovernmental Transactions Remain Unreconciled ........................................... 12

Report on Compliance With Applicable Provisions of Laws,
Regulations, Contract, and Grant Agreements ......................................................... 14

Evaluation of Management Comments...................................................................... 16

Appendix I           Scope and Methodology ...................................................................... 18
Appendix II          Management Comments...................................................................... 20
Appendix III         Status of Prior Year Findings and Recommendations ...................... 23
Appendix IV          Financial Statements, Notes, and Required
                     Supplementary Information................................................................. 26
Abbreviations

The following abbreviations appear in this report:

FFMIA          Federal Financial Management Improvement Act of 1996
FISMA          Federal Information Security Management Act
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FY             fiscal year
GMRA           Government Management Reform Act
OIG            Office of Inspector General
OMB            Office of Management and Budget
USSGL          U.S. Government Standard General Ledger
SUMMARY OF RESULTS
USAID’s consolidated balance sheets, consolidated statements of net cost, consolidated
statements of changes in net position, and combined statements of budgetary resources
present fairly, in all material respects, the financial position of USAID as of September 30, 2013
and 2012, and its net cost, net position, and budgetary resources for the years then ended, in
conformity with accounting principles generally accepted in the United States of America.

This audit identified one deficiency in internal control that we considered a material weakness,
related to USAID’s processes for reconciling its fund balance with the U.S. Treasury. The audit
also identified four significant deficiencies in internal control related to the following financial
management processes:

   Deobligating unliquidated obligations
   Accounting for advances
   Supporting payroll deductions
   Reconciling intragovernmental transactions

This audit identified no instances of substantial noncompliance with federal financial
management systems requirements, federal accounting standards, or the U.S. Standard
General Ledger at the transaction level as a result of the tests required by Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA), Public Law 104-208,
Title VIII (31 USC 3512 note). However, we reported one significant deficiency in the Agency’s
annual Federal Information Security Management Act (FISMA) audit report, which we classified
as an instance of substantial noncompliance with FFMIA as required by Office of Management
and Budget (OMB) Bulletin 14-02, “Audit Requirements for Federal Financial Statements.”




                                                                                                  1
BACKGROUND
USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad-based
sustainable development and providing humanitarian assistance. USAID has missions in more
than 100 countries, 45 of which have full accounting operations with USAID controllers. For the
fiscal year ended September 30, 2013, USAID reported total budgetary resources of
approximately $24 billion.

Statements
Pursuant to the Government Management Reform Act of 1994, Public Law 103-356, USAID is
required to submit audited financial statements to OMB annually. Accordingly, for fiscal year
(FY) 2013, USAID has prepared the following:

      Consolidated Balance Sheet
      Consolidated Statement of Net Cost
      Consolidated Statement of Changes in Net Position
      Combined Statement of Budgetary Resources
      Notes to the Principal Financial Statements
      Required Supplementary Information
      Other Accompanying Information

Audit Objective
The Office of Inspector General (OIG) performed this audit to determine whether USAID’s
principal financial statements present fairly the assets, liabilities, net position, net costs,
changes in net position, and budgetary resources for FYs 2013 and 2012.

In our opinion, the financial statements referred to above present fairly in all material respects,
USAID’s assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30, 2013, and 2012, and for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards,1 OIG has also issued reports, dated
December 16, 2013, on its consideration of USAID’s internal control over financial reporting and
on its tests of USAID’s compliance with certain provisions of laws and regulations. These
reports are an integral part of an overall audit conducted in accordance with Government
Auditing Standards and should be read in conjunction with the independent auditor’s report.




1
    GAO-12-331G (December 2011 Revision).


                                                                                                 2
INDEPENDENT AUDITOR’S
REPORT
Report on the Financial Statements
We have audited the accompanying financial statements of USAID, which comprise the
consolidated balance sheets as of September 30, 2013 and 2012 and the related consolidated
statements of net cost, consolidated statements of changes in net position, and combined
statements of budgetary resources for the years then ended, and the related notes to the
financial statements.

Management’s Responsibility for the
Financial Statements
Management is responsible for the preparation and fair presentation of these financial
statements in accordance with accounting principles generally accepted in the United States of
America; this includes the design, implementation, and maintenance of internal control relevant
to the preparation and fair presentation of consolidated financial statements that are free from
material misstatement, whether due to fraud or error.

Auditor’s Responsibility
Our responsibility is to express an opinion on these financial statements based on our audits.
We conducted the audits in accordance with auditing standards generally accepted in the
United States of America; generally accepted government auditing standards issued by the
Comptroller General of the United States; and OMB Bulletin 14-02, “Audit Requirements for
Federal Financial Statements”. Those standards and OMB Bulletin 14-02 require that we plan
and perform the audit to obtain reasonable assurance about whether the consolidated financial
statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the
consolidated financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of the accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the consolidated financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.




                                                                                               3
Opinion
In our opinion, the consolidated financial statements referred to above present fairly in all
material respects, the financial position of USAID as of September 30, 2013 and 2012 and its
assets, liabilities, net position, net costs, changes in net position, and budgetary resources for
the years then ended in accordance with accounting principles generally accepted in the United
States of America.

Other Matter
In our report dated November 16, 2012, we expressed an opinion that, except for the effects of
unsupported adjustments, the 2012 financial statements presented fairly, in all material
respects, USAID’s assets, liabilities, and net position; net costs; changes in net position; and
budgetary resources, in accordance with accounting principles generally accepted in the United
States of America. As described in Note 20 to the financial statements, USAID reversed the
unsupported adjustments and restated its 2012 financial statements. Accordingly, our present
opinion on the restated 2012 financial statements, as presented herein, is different from that
expressed in our previous report.

Report on Other Legal and
Regulatory Requirements
The Management’s Discussion and Analysis and Required Supplementary Information sections
are not required parts of the consolidated financial statements but represent supplementary
information required by OMB Circular A–136, “Financial Reporting Requirements.” We have
applied certain limited procedures to this information, primarily consisting of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports, dated
December 16, 2013, on our consideration of USAID’s internal control over financial reporting
and our tests of its compliance with certain provisions of laws, regulations, contract, and grant
agreements. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report.

Restriction on the Use of the
Audit Report
This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.



USAID Office of Inspector General
December 16, 2013


                                                                                                4
REPORT ON
INTERNAL CONTROL
We have audited the accompanying financial statements of USAID, which comprise the
consolidated balance sheets as of September 30, 2013 and 2012, and the related consolidated
statements of net cost, consolidated statements of changes in net position, and combined
statements of budgetary resources for the years then ended, and the related notes to the
financial statements.


Internal Control Over
Financial Reporting
In planning and performing our audits of USAID’s financial statements for the fiscal years ended
September 30, 2013 and 2012, we considered USAID’s internal control over financial reporting
by obtaining an understanding of USAID’s system of internal control, determining whether
internal controls had been placed in operation, assessing control risk, and testing controls to
determine which auditing procedures to use for expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 14-02. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), Public Law 97-225, such as those controls relevant to ensuring efficient operations.
The objective of our audit was not to provide an opinion on internal control. Accordingly, we do
not express an opinion on internal control.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and would not necessarily identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies. However, as discussed below, we identified one
material weakness and four significant deficiencies in USAID’s internal control.

A material weakness is a deficiency or a combination of deficiencies in internal control that
presents a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented or detected and corrected in a timely manner. We identified
one deficiency in internal control that we consider a material weakness, as defined above,
relating to USAID’s reconciliation of its Fund Balance With Treasury account.

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet is important enough to merit attention by those
charged with governance. We identified four significant deficiencies in internal control related to
USAID’s financial management processes to:

   Deobligate unliquidated obligations.
   Account for advances.
   Support payroll deductions.
   Reconcile intragovernmental transactions.




                                                                                                   5
The Management’s Discussion and Analysis and Required Supplementary Information sections
are not required parts of the consolidated financial statements but represent supplementary
information required by OMB Circular A–136, “Financial Reporting Requirements.” We have
applied certain limited procedures to this information, primarily consisting of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we do not express an opinion on it.

We also noted other matters involving internal control over financial reporting that we will report
to USAID’s management in a separate letter dated December 16, 2013.

Material Weakness
USAID Does Not Reconcile Its Fund
Balance With Treasury Account With the
U.S. Treasury and Resolve Reconciling
Items in a Timely Manner (Repeat Finding)
USAID continues to have large unreconciled differences between the Fund Balance With
Treasury (FBWT or cash) account recorded in the financial accounting system (Phoenix) and
the fund balance reported by the Department of the Treasury (Treasury). As of September 30,
2013, these differences totaled approximately $121 million net ($1.9 billion, absolute value).
This finding has been reported for several years. Table 1 illustrates the differences for the past
five fiscal years.

                    Table 1. USAID’s Fund Balance Differences ($ million)
                      Fiscal Year           Net Difference        Absolute Value
                         2009                      45                   711
                         2010                      64                   894
                         2011                      96                 2,100
                         2012                    114                    127
                         2013                    121                  1,915

These differences persist because USAID did not consistently perform monthly reconciliations
of the FBWT account with Treasury’s fund balance and promptly research and resolve those
differences. Instead of investigating and resolving the differences, USAID arbitrarily adjusted its
FBWT account to agree with Treasury’s fund balance. In FY 2012 USAID stated that the cash
balance in its budget module was accurate, adjusted its FBWT account in the general ledger to
agree with the budget module, and moved funds from all affected appropriations to one
appropriation at Treasury. In FY 2013 USAID determined that the method used to determine the
amount of the adjustments was incorrect or unsupported and therefore reversed all the
adjustments except those related to cancelled appropriations. This action increased the
differences between USAID and Treasury, forcing USAID to adjust its FBWT account by
$121 million as of September 30, 2013, to ensure that it agreed with the balance reported on
Treasury’s Form 2108, Year End Closing Statement. To expedite the reconciliation process and
facilitate the research and resolution of differences, USAID has implemented eCART, a Web-
based cash reconciliation system.2 The Agency has begun a comprehensive reconciliation of its
2
  eCART performs a comprehensive reconciliation of the Agency’s cash disbursement with Treasury’s
fund balance, tracking open reconciling items and providing an audit trail of corrective action taken.


                                                                                                    6
FBWT and related accounts, such as advances, obligations, expenditures, and accounts
payable. It estimated the reconciliations would be completed by the end of FY 2015.

Another problem the audit disclosed was that of 74 fund groups, 6 had abnormal cash balances
with Treasury, totaling a combined ($77,757,529). These abnormal credit balances can be from
erroneous disbursements, by USAID or by third-party payers such as the U.S. Department of
Health and Human Services (DHHS), the National Finance Center (NFC), and the Department
of State. To rectify the abnormal balances, USAID implemented a corrective action plan and, as
of the date of this report, had corrected approximately $17 million.

Furthermore, USAID recorded transactions in the suspense accounts that it did not research
and resolve within the 60-day period established by Treasury. As of September 30, 2013, there
were 358 items with a net value of $3 thousand ($2.3 million absolute value) more than 60 days
old. This amount represents a great improvement from FY 2012, when there were 717 items
valued at $52.2 million ($59 million absolute value). USAID anticipates that by June 30, 2014, all
suspense items older than 60 days will be resolved.

Fund Balance With Treasury Reconciliation Procedures, a Supplement to the Treasury
Financial Manual, Volume I, Part 2-5100, Section V, stipulates that federal agencies must
reconcile their accounts and any related subaccounts monthly, at a minimum, and “must resolve
all differences between the balances reported on their general ledger FBWT accounts and
balances reported on the GWA [Government-wide Accounting System] Account Statement.” In
addition, the supplement specifically states: “An agency may not arbitrarily adjust its FBWT
account. Only after clearly establishing the causes of errors and properly documenting those
errors should an agency adjust its FBWT account balance.”

Treasury requires each agency to reconcile its FBWT account on a regular and recurring basis
to ensure the accuracy and integrity of its financial data. Failure to implement effective
reconciliation processes and perform timely reconciliations could increase the risks of fraud,
waste, and mismanagement of funds; affect the Agency’s ability to monitor the execution of its
budget effectively; and hinder its ability to measure the full cost of its programs.

USAID is implementing a plan that will be executed and completed in two stages to reconcile all
differences. The appropriations will be divided into two groups for which differences will be
identified, investigated, and resolved, and adjustments recorded. The first group will be
completed by March 31, 2014, and the other group by FY 2015. Therefore, we make the
following recommendation.

   Recommendation 1. We recommend that USAID intensify its effort to expedite the
   completion of the reconciliation and make results available for periodic review.




                                                                                                7
Significant Deficiencies
USAID’s Process for Deobligating
Unliquidated Obligations Needs
Improvement (Repeat Finding)
USAID established a team dedicated to reviewing and closing out procurement obligations
without activity for more than 3 years. During FY 2013, the team identified approximately
$70 million of outstanding obligations that were deobligated and made available in the Phoenix
accounting system for reprogramming. However, large amounts of outstanding obligations
remain that could potentially be deobligated. During our audit, we analyzed3 USAID’s
unliquidated obligations (ULOs) and determined that, as of September 30, 2013, USAID had
approximately $128 million4 in unliquidated obligations with no disbursements for more than 3
years that might be available for deobligation. Of the $128 million, approximately $24 million
was older than 10 years and approximately $55 million had no disbursements since they were
established (Table 2).

                         Table 2. Analysis of ULOs by Fiscal Years
                       Obligation Amounts With   Unliquidated Amounts          Total Amount of
    FY Established         No Activity Since     With No Activity for 3-   Unliquidated Obligations
                           Establishment ($)           Years ($)                      ($)
    2002 and Prior             3,264,184               20,910,354                24,174,538
        2003                     344,006                1,465,106                 1,809,112
        2004                   1,068,900                3,615,365                 4,684,265
        2005                   1,389,639                7,630,264                 9,019,902
        2006                   2,092,498                8,282,373                10,374,871
        2007                   4,973,681               13,159,920                18,133,601
        2008                   5,732,855               10,808,715                16,541,569
        2009                  10,854,967                4,863,352                15,718,320
        2010                 25,505,092                 1,667,354                27,172,446
        Total                 55,225,822               72,402,803               127,628,625

These deficiencies occurred because USAID does not have an effective process to identify and
deobligate awards and contracts in a timely manner. Given the significant amount of low dollar
and old obligations that make up this balance, performing manual deobligation actions within the
accounting system becomes cumbersome and problematic.

USAID’s Automated Directives System (ADS) Chapter 621, “Obligations,” states that Obligation
Managers must continuously monitor unexpended obligated balances and ask the obligating
official to deobligate excess or unneeded funds.

As a result of the ineffective process, USAID has increased the risk of losing program and
operating expense funds that may expire before they are deobligated. Because USAID has
awarded contracts to independent public accounting firms to conduct contract closeout audits


3
  The methodology used in FY 2013 was expanded to include missions, grants, and subobligations,
  resulting in an increase in unliquidated obligations.
4
  Over the past 5 years, obligations incurred averaged approximately $13 billion annually.


                                                                                                      8
on procurement awards, has initiated targeted reviews of awards, and has established a
management bureau task force to address Agency-wide ULO balances, we are not making a
recommendation on these matters. However, because USAID has approximately $128 million in
ULOs with no disbursement activity for more than 3 years, we make the following
recommendation.

   Recommendation 2. We recommend that USAID intensify its efforts to investigate and
   deobligate outstanding obligations, especially those that make up the $55 million that
   had no activity since they were established.


USAID’s Process for Accounting for
Advances Needs Improvement
(Repeat Finding)
USAID’s process for accounting for advances continues to be problematic. Specifically, USAID:

   Continues to have outstanding advances for more than 90 days that should be researched
   to determine if the outstanding balances should be recovered or corrected.

   Has not reconciled the advances control account in the general ledger to the subsidiary
   ledger.

   Has not investigated certain letter-of-credit advances and made corrections to ensure that
   USAID’s financial records are consistent with the financial records of Treasury.

   Has not investigated negative advances to determine if they represent amounts owed to the
   Agency and should be recovered.

As of September 30, 2013, USAID had approximately $41 million in advances that were
outstanding for more than 90 days as illustrated in Table 3.

                    Table 3. Advances Outstanding for More Than 90 Days
                                                                  Number         Amount
      Office                          Category                   Outstanding   ($ thousand)
 USAID/W            Intragovernmental                                   41         17,346
                    Grantees                                           140            606
                    Public International Organizations                 284          5,183
 USAID/Missions     Intragovernmental                                   17          3,150
                    Grantees                                            78            869
                    Public International Organizations                 957         13,787
                                                         Total       1,517         40,941

These advances were outstanding because USAID and its missions permitted grantees a
3-month rolling advance, meaning they could take an additional 30 days to report expenses
incurred in the prior quarter. USAID then took another 30 days to review and liquidate the
advances. As a result, USAID advances were outstanding for 150 days or more before they
were even considered for liquidation. Failure to liquidate advances in a timely manner provides


                                                                                              9
no assurance to USAID that the funds advanced are being used for the intended programs.
USAID issued ADS 636, “Program Funded Advances,” which addresses accounting and
reporting for advances, but did not require the missions to establish outstanding advances as
accounts receivable within a reasonable period.

USAID’s Chief Financial Officer is working to reduce the $17.8 million in outstanding advances
at its missions and has taken a number of corrective actions, such as upgrading the Phoenix
advance aging reports and issuing new guidance to its missions on advances.
USAID/Washington is responsible for the remaining $23 million in outstanding advances, of
which $5.2 million is attributable to advances made to public international organizations and
grantees, which consistently delay the liquidation of advances made to them. USAID’s ADS 636
states that missions and Washington offices are required to ensure periodic review of
outstanding advances so that they do not exceed immediate cash needs.

Our audit also revealed that USAID did not fully reconcile the general ledger advance account to
the subsidiary ledger. This occurred because USAID chose to reconcile advances, not in
isolation, but as part of a comprehensive process that reconciles all general ledger accounts
affected by the FBWT reconciliation to the respective balances in the subsidiary ledgers. In
FY 2012 USAID completed a reconciliation using the budget module as a basis and adjusted
various accounts that appear in the financial statements, including advances. However, USAID
did not verify or validate these adjustments before FY 2012 year-end reporting. In FY 2013
USAID determined that the methodology used to determine the amount of the adjustment for
advances was incorrect and reversed the adjustments. During FY 2013, USAID compared the
advance account in the general ledger and the subsidiary ledger and identified certain
transactions that should be reviewed to determine their validity. The comparison showed a net
difference of approximately $27.8 million with an absolute value of $160 million that should be
researched and resolved to determine whether the advances account is misstated.

The audit further revealed that USAID has not completed the investigation and resolution of
differences in appropriation balances between Treasury and USAID. These differences arose
because Treasury and USAID did not charge the same appropriation for disbursements made
by the DHHS Payment Management System (PMS) on behalf of USAID to grantees and
contractors, and reported by DHHS to USAID and Treasury. USAID compared the transactions
reported by Treasury and the transactions recorded in Phoenix and identified differences
totaling approximately $8 million that were unresolved for more than 90 days as of August 31,
2013. We also identified negative unliquidated advances of approximately $5.3 million in the
synchronization report of PMS that USAID did not investigate to determine whether this amount
is owed to the Agency and should be recovered. As a result, advances may be misstated by
approximately $5.3 million. USAID has implemented new procedures to prevent this problem
from recurring, but the transactions causing these differences are from prior years.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1) states:

       Control activities occur at all levels and functions of the entity. They include a
       wide range of diverse activities such as approvals, authorizations, verifications,
       reconciliations, … and maintenance of related records which provide evidence of
       execution of these activities as well as the appropriate documentation.

USAID has implemented a process to reconcile the differences between the general ledger and
the subsidiary ledger and will start recording adjustments in FY 2014, but will not be able to


                                                                                             10
complete the reconciliation until FY 2015. Although we will monitor USAID’s progress in
reconciling and resolving these differences in FY 2014, we make the following recommendation.

   Recommendation 3. We recommend that the Office of the Chief Financial Officer
   (a) research all advances outstanding for more than 90 days to determine if they should
   be recovered, (b) implement policies and procedures for establishing accounts
   receivable to recover outstanding advances within a reasonable period, and (c) review
   and correct as necessary appropriations erroneously charged by the DHHS and
   recorded by the Department of the Treasury.

USAID Could Not Provide Documentation
to Support Payroll Deductions
USAID could not provide documentation for the deductions noted on employees’ statements of
earnings and leave. During our audit, USAID was able to provide 68 of 83 records requested to
validate whether employees had authorized certain benefit deductions from their salaries. Our
examination of those records indicated that $691 deducted from employees’ salaries was not
supportable. Because 15 of the records requested were missing, we were not able to apply the
planned audit procedures or alternative procedures. Therefore, we treated the items not
provided as misstatements totaling $983 as shown in Table 4.
                            Table 4. Payroll Deduction Calculations
            Deduction Type                    Missing        Amount       Incorrect       Amount
                                             Documents         ($)       Calculations       ($)
 Federal Employees Health Benefits Act            10            850            8              298
 (FEHB)
 Federal Employees Group Life Insurance
 Act (FEGLI)                                       4             54            7              320
 FEHB + FEGLI                                      1             79            1               73
                                    Total         15            983           16              691

Problems with the reporting process occurred because employee benefit records may be
entered electronically, either in the electronic official personnel folder or in the National Finance
Center’s system, depending on how employees were hired and whether eligible employees
used the Employee Personnel Page to elect or change their benefits during open season. The
lack of work flow analysis and business processes makes it difficult to locate missing
documentation.

GAO’s Standards for Internal Control in the Federal Government states:

       Control activities are an integral part of an entity’s planning, implementing,
       reviewing, and accountability for stewardship of government resources and
       achieving effective results. . . . They include a wide range of diverse activities
       such as approvals, authorizations, verifications, reconciliations, performance
       reviews, maintenance of security, and the creation and maintenance of related
       records which provide evidence of execution of the activities as well as the
       appropriate documentation. . . . Internal control should generally be designed to
       assure that ongoing monitoring occurs in the course of normal operations. It is
       performed continually and is ingrained in the agency’s operations. It includes
       regular management and supervisory activities, comparisons, reconciliations,



                                                                                                    11
       and other actions people take in performing their duties.

Effective management oversight greatly increases USAID’s ability to identify and resolve issues
before they cause misstatements in financial accounting and reporting. By not performing
monitoring, analysis, oversight, and reconciliations, USAID may not detect discrepancies that
could cause financial information to be misstated. Therefore, we make the following
recommendation.

   Recommendation 4. We recommend that USAID’s Office of Human Resources
   implement applicable work flow or business processes that clearly delineate roles and
   responsibilities within the Office of Human Resources for processing different types of
   actions, whether they were first entered manually or electronically, to make sure that
   records that support deductions from employees’ salaries are easily retrievable.

Intragovernmental Transactions Remain
Unreconciled (Repeat Finding)
USAID continues to have a large number of unreconciled intragovernmental transactions. As of
September 30, 2013, Treasury reported a net difference of $2.9 billion in intragovernmental
transactions between USAID and other federal agencies. Treasury reports these differences
quarterly in the Reciprocal Category Detail Report. They represent differences identified by
Treasury between USAID’s records and those of its federal trading partners. Of the $2.9 billion,
USAID was required to reconcile and confirm $295 million in accordance with OMB Circular A-
136, “Financial Reporting Requirements,” and Treasury’s Federal Intra-governmental
Transactions Accounting Policies Guide, Section 17.1. Although USAID has increased its efforts
to resolve unreconciled amounts, significant differences still exist. These differences occurred
because USAID’s trading partners recorded the transactions in different accounting periods or
used different methodologies to classify and report the transactions.

USAID continually researches intragovernmental activity to improve its reconciliation process
and eliminate the differences. Although some timing differences are likely to be resolved
through current efforts, differences caused by accounting errors or different accounting
methodologies require a special effort by USAID and its trading partners for timely resolution.
The Federal Intragovernmental Transactions Accounting Policies Guide suggests that agencies
work together to estimate accruals and record corresponding entries to ensure that they agree
and that long-term accounting policy differences can be eliminated.

Of the total difference of $2.9 billion between USAID and its trading partners, Treasury does not
require USAID to reconcile $2.6 billion reported for trading partner 99 but suggests that federal
agencies confirm that these differences represent general fund activities. USAID is making an
effort to confirm the general fund activity and plans to continue collaborating with Treasury to
research and reconcile these differences. Treasury plans to update the guidance on capital
transfers in fiscal year 2014 to include steps to resolve differences with trading partner 99,
which reports transactions with Treasury’s general fund.




                                                                                              12
We reported a similar finding in previous audits5 and recognize that resolution requires
continuing coordination with other federal agencies. Therefore, we are not making a new
recommendation, but we will continue to monitor USAID’s progress in reducing
intragovernmental differences.

USAID management’s written response to the material weakness and significant deficiencies
identified in our audit has not been subjected to the audit procedures applied in the audit of the
financial statements. Accordingly, we express no opinion on it.

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.



USAID Office of Inspector General
December 16, 2013




5
    “Audit of USAID’s Financial Statements for Fiscal Years 2012 and 2011,” November 16, 2012, page 17.


                                                                                                     13
REPORT ON COMPLIANCE
WITH APPLICABLE
PROVISIONS OF LAWS,
REGULATIONS, CONTRACT,
AND GRANT AGREEMENTS
We have audited the consolidated balance sheets of USAID as of September 30, 2013 and
2012. We have also audited the consolidated statements of net cost, consolidated statements of
changes in net position, and combined statements of budgetary resources for the fiscal years
ended September 30, 2013 and 2012, and have issued our reports thereon. We conducted the
audits in accordance with auditing standards generally accepted in the United States; generally
accepted government auditing standards issued by the Comptroller General of the United
States; and OMB Bulletin 14-02, “Audit Requirements for Federal Financial Statements.”

The management of USAID is responsible for complying with laws and regulations applicable to
USAID. As part of obtaining reasonable assurance about whether USAID’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on
the determination of financial statement amounts and with certain other laws and regulations
specified in OMB Bulletin 14-02, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Our tests did not disclose instances of noncompliance considered reportable under Government
Auditing Standards. Our objective was not to provide an opinion on overall compliance with laws
and regulations, and accordingly, we do not express such an opinion.

OMB Circular A–123
OMB Circular A–123, “Management’s Responsibility for Internal Control,” implements the
requirements of the FMFIA. Appendix A of OMB Circular A–123 contains a process that
management should implement to assess and improve internal controls over financial reporting.
The assessment process should provide management with the information needed to support a
separate assertion on the effectiveness of the internal controls over financial reporting, as a
subset of the overall FMFIA report.

In FY 2013, USAID monitored key business processes and followed up on recommendations
made in prior years. In its Management Assurance Statement, USAID identified one instance of
nonconformance related to a lack of an effective risk management program, and reported two
material weaknesses related to:




                                                                                             14
   Fund Balance With Treasury
   Implementation of information security policies and procedures

Federal Financial Management Improvement Act of 1996
Under FFMIA, we are required to report on whether USAID’s financial management systems
substantially comply with federal financial management systems requirements, applicable
federal accounting standards, and the U.S. Government Standard General Ledger (USSGL) at
the transaction level. To meet this requirement, we performed tests of compliance with each of
the three FFMIA Section 803(a) requirements.

We reported one significant deficiency in USAID’s annual FISMA audit report dated October 15,
2013 and, as required by OMB Bulletin 14-02, “Audit Requirements for Federal Financial
Statements,” we reported this deficiency as an instance of substantial noncompliance with
FFMIA. Specifically, we reported that USAID has not established an effective risk management
program to ensure that policies and procedures are assessed and working as intended and that
USAID’s decentralized management of information technology and information security does
not allow the Agency to implement a process to effectively assess, respond to, and monitor
information security risk across the organization. The Office of the Chief Information Officer is
responsible for the financial management system that was found not to comply with the
requirements of the subsection. In response to the significant deficiency, USAID implemented a
three-phase action plan to improve its information security and expects to complete remediation
of this deficiency by June, 2015.

In our report on internal control, we identified the following areas for improvement in several
financial system processes, not affecting substantial compliance:

   Reconciling Fund Balance With the U.S. Treasury
   Accounting for Unliquidated Obligations
   Accounting for Advances
   Supporting Payroll Deductions
   Reconciling Intragovernmental Transactions

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.



USAID Office of Inspector General
December 16, 2013




                                                                                              15
EVALUATION OF MANAGEMENT
COMMENTS
We have received USAID’s management comments on the findings and recommendations
included in our draft report. The following is a summary of USAID’s management comments and
our evaluation of them.

USAID’s management accepted Recommendation 1 and commented that the office of the CFO
will intensify its efforts to complete this reconciliation. Management further commented that
during FY 2013, the office of the CFO developed a comprehensive methodology to identify the
necessary adjustments to reconcile its fund balance with Treasury and will employ this
methodology to complete this reconciliation. The target completion date is December 31, 2014.
We acknowledge USAID’s management decision on this recommendation and will review the
Agency’s progress on implementing it during our FY 2014 Government Management Reform
Act (GMRA) audit.

USAID’s management accepted Recommendation 2 and agreed that the process to identify and
deobligate unneeded balances should be intensified. Management further agreed to continue its
efforts to address the backlog of contracts to be closed out in FY 2014. The target completion
date is September 30, 2014. We acknowledge USAID’s management decision on this
recommendation and will review the Agency’s progress on implementing it during our FY 2014
GMRA audit.

USAID’s management accepted Recommendation 3 and stated that the Office of the CFO will
continue to research and resolve issues related to advances. Management further commented
that USAID has drafted and will incorporate updates into the appropriate section of the Agency’s
Automated Directives System to reflect policies and procedures for establishing accounts
receivables for unliquidated advances within a reasonable period. In addition, the Office of the
CFO has developed procedures to ensure timely redirection of DHHS transactions to the proper
appropriation in the financial system. The target completion date is June 30, 2014. We
acknowledge USAID’s management decision on this recommendation and will review the
Agency’s progress on implementing it during our FY 2014 GMRA audit.

USAID’s management accepted Recommendation 4 and stated that the Office of the CFO
would coordinate with the Office of Human Resources to 1) document and review business
processes for various OHR actions impacting payroll deductions including hiring, transfers, open
seasons, and qualifying life events; 2) based on the business process review, create and/or
update standard operating procedures that identify accountable staff responsible for scanning
and indexing new personnel documents in the EOPF, identify required documentation and
records that support deductions from employees’ salaries, and include timelines within which
new actions are entered into the EOPF. The target completion date is June 30, 2014. We
acknowledge USAID’s management decision on this recommendation and will review the
Agency’s action on it during our FY 2014 GMRA audit.




                                                                                             16
Although we did not include a recommendation for the finding on reconciling intragovernmental
transactions, USAID management commented that they will continue to coordinate with other
federal agencies to resolve differences in a timely manner. The target completion date is
September 30, 2015. We acknowledge USAID’s management decision and will review progress
on its implementation during our FY 2014 GMRA audit.
.




                                                                                          17
                                                                                       Appendix I
                                                                                      Page 1 of 2


SCOPE AND METHODOLOGY
USAID management is responsible for (1) preparing the financial statements in accordance with
generally accepted accounting principles; (2) establishing, maintaining, and assessing internal
control to provide reasonable assurance that the broad control objectives of FMFIA are met;
(3) ensuring that USAID’s financial management systems substantially comply with the
requirements of FFMIA; and (4) complying with other applicable laws and regulations.

OIG is responsible for obtaining reasonable assurance about whether the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States of America. OIG is also responsible for (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the audit,
(2) testing whether USAID’s financial management systems substantially comply with FFMIA
requirements, (3) testing compliance with selected provisions of laws and regulations that have
a direct and material effect on the financial statements and laws for which OMB audit guidance
requires testing, and (4) performing limited procedures with respect to certain other information
appearing in the Agency Financial Report.

To fulfill these responsibilities, OIG:

    Examined, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements.

    Assessed the accounting principles used and significant estimates made by management.

    Evaluated the overall presentation of the financial statements.

    Obtained an understanding of internal control related to financial reporting (including
    safeguarding assets) and compliance with laws and regulations (including execution of
    transactions in accordance with budget authority).

    Tested relevant internal controls over financial reporting and compliance, and evaluated the
    design and operating effectiveness of internal controls.

    Considered the process for evaluating and reporting on internal control and financial
    management systems under FMFIA.

    Tested USAID’s compliance with FFMIA requirements.

We also tested USAID’s compliance with selected provisions of the following laws and
regulations:

    Antideficiency Act, July 12, 1870; codified at 31 U.S.C. 1341, 1342, 1349 to 1351, and 1511
    to 1519

    Improper Payments Information Act of 2002, Public Law 107-300




                                                                                               18
                                                                                        Appendix I
                                                                                       Page 2 of 2


   Prompt Payment Act, Public Law 97-177

   Debt Collection Improvement Act of 1996, Public Law 104-134

   Federal Credit Reform Act of 1990, Public Law 93-344

   OMB Circular A–136

   OMB Circular A–123

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error,
fraud, losses, or noncompliance may occur and may not be detected. We also caution that
projecting our evaluation to future periods is subject to the risk that controls may become
inadequate because of changes in conditions, or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We limited our
tests of compliance to those laws and regulations required by OMB audit guidance that we
deemed applicable to the financial statements for the fiscal years ended September 30, 2013
and 2012. We caution that noncompliance may occur and may not be detected by these tests,
and that such testing may not be sufficient for other purposes.

In forming our opinion, we considered potential aggregate errors exceeding $207 million for any
individual statement to be material to the presentation of the overall financial statements.

Federal Financial Management Improvement Act of 1996 (FFMIA)
We assessed whether USAID was substantially compliant with Section 803(a) of the FFMIA,
which requires agencies to implement and maintain financial management systems that
substantially comply with (1) federal financial management systems requirements, (2) applicable
federal accounting standards, and (3) the USSGL at the transaction level. To perform our
review, we evaluated USAID’s financial transactions recorded in Phoenix to determine whether
they were compatible with federal accounting standards and the USSGL at the transaction level,
and we did not observe any exceptions. However, in another engagement, we reported one
significant deficiency in the Agency’s annual FISMA audit report and, as required by OMB
Bulletin 14-02, “Audit Requirements for Federal Financial Statements,” we reported this
deficiency as an instance of substantial noncompliance with FFMIA because it pertained to the
financial management systems.




                                                                                                 19
                                                                                   Appendix II
                                                                                   Page 1 of 3


MANAGEMENT COMMENTS


                                                                        December 16, 2013

MEMORANDUM

TO:                  Acting AIG/A, Melinda Dempsey

FROM:                Acting M/CFO Chief Financial Officer, Kent A. Kuyumjian /s/

SUBJECT:      Management Response to Draft Independent Auditor’s Report on USAID’s
              Financial Statements for Fiscal Years 2013 and 2012
              (Report No. 0-000-14-001-C)

Thank you for your draft report on the Audit of USAID’s Financial Statements for Fiscal Years
2013 and 2012 and for the professionalism exhibited by your staff throughout this process.

Fiscal Year (FY) 2013 was a significant year for federal financial management at USAID. We
are gratified that the USAID Inspector General will issue unmodified opinions on all four
principal financial statements. The acknowledgments of the Agency’s improvements in financial
systems and processes throughout the report are appreciated.

Our comments and management decisions regarding the findings and proposed audit
recommendations follow:

Material Weakness: USAID Does Not Reconcile Its Fund Balance With Treasury Account
With the U.S. Treasury and Resolve Reconciling Items in a Timely Manner (Repeat
Finding)

Recommendation No 1: We recommend that USAID intensifies its efforts and expedite the
completion of the reconciliation and make results available for periodic review.

Management Decision: USAID accepts the finding and recommendation and will intensify its
efforts to complete this reconciliation.

During FY 2013, The Bureau for Management, Office of the Chief Financial Officer (M/CFO)
developed a comprehensive methodology to identify the necessary adjustments needed to
reconcile its fund balance with Treasury. M/CFO will employ this methodology to determine the
appropriate adjustment amounts to complete this reconciliation. One set of adjustments will be
made in early FY 2014 with the remainder completed by the first quarter of FY 2015.




                                                                                           20
                                                                                    Appendix II
                                                                                    Page 2 of 3

Target completion date: December 31, 2014

Significant Deficiency: USAID Process for Deobligating Unliquidated Obligations Needs
Improvement (Repeat Finding)

Recommendation: No. 2: We recommend that USAID intensify its efforts to investigate and
deobligate outstanding obligations especially those that comprise the $55 million that had no
activity since they were established.

Management Decision: USAID accepts the finding and recommendation.

USAID agrees that the process to identify and deobligate unneeded balances should be
intensified. As acknowledged by the OIG, USAID made significant progress to address the
backlog of contracting actions by establishing a team to facilitate this process resulting in
deobligations of about $70 million in FY 2013. The Agency will continue these efforts in FY
2014. We will refine and implement an agency-wide web-based batch deobligation tool.

Target Completion Date: September 30, 2014.

Significant Deficiency:   USAID’s Process for Accounting for Advances Needs
Improvement (Repeat Finding)

Recommendation No. 3: We recommend that the Office of the Chief Financial Officer (a)
research all advances outstanding for more than 90 days to determine if they should be
recovered, (b) implement policies and procedures for establishing accounts receivable to
recover outstanding advances within a reasonable time frame, and (c) review and correct as
necessary, appropriations erroneously charged by the Department of Health and Human
Resources and recorded by the Department of the Treasury.

Management Decision: USAID accepts the finding and recommendation.

M/CFO will continue to research and resolve issues related to advances. To date, we have
made great strides researching, recovering and posting outstanding advances. Updated
procedures have been drafted, are in the review process, and will be incorporated into the
appropriate section of the Agency’s Automated Directives System (ADS) to reflect policies and
procedures related to establish accounts receivables and applicable advance timeframes. In
addition, M/CFO has developed procedures to ensure timely corrections of DHHS transactions
in its financial system, Phoenix.

Target completion date: June 30, 2014

Significant Deficiency:    USAID Could Not Provide Documentation to Support Payroll
Deductions

Recommendation No. 4: We recommend that USAID’s Office of Human Resources implement
applicable work flow or business processes that clearly delineate roles and responsibilities
within the Office of Human Resources for processing different types of actions, whether they
were first entered manually or electronically, to make sure that records that support deductions
from employees’ salaries are easily retrievable.

Management Decision: USAID accepts the finding and recommendation.


                                                                                             21
                                                                                Appendix II
                                                                                Page 3 of 3

The USAID/Office of Human Resources will continue to coordinate with M/CFO to: 1) document
and review business processes for various OHR actions impacting payroll deductions including
hiring, transfers, open seasons, and qualifying life events; and 2) based on the business
process review, create and/or update SOPs that identify accountable staff responsible for
scanning and indexing new personnel documents in the eOPF, identify required documentation
and records that support deductions from employees’ salaries, and include timelines within
which new actions are entered into the eOPF.

Target completion date: June 30, 2014

Significant Deficiency:   Intragovernmental Transactions Remain Unreconciled (Repeat
Finding)

Management Decision: USAID accepts the finding and will continue to coordinate with other
federal agencies to resolve the Intragovernmental differences in a timely manner.

Target completion date: September 30, 2015

In closing, I would like to confirm USAID’s commitment to continuously improve its financial
management. We will build on the noted improvements made last year and further develop as
well as implement long-term solutions to address the issues cited in your report. M/CFO will
continue to ensure that all necessary steps are taken to institutionalize strong financial
management performance throughout the Agency.




                                                                                         22
                                                                                    Appendix III
                                                                                    Page 1 of 3


STATUS OF PRIOR YEAR
FINDINGS AND
RECOMMENDATIONS
OMB Circular A–50, “Audit Followup,” states that a management decision on audit
recommendations shall be made within a maximum of 6 months after a final report is issued.
Corrective action should proceed as rapidly as possible.

Status of 2012 Findings and Recommendations
Recommendation 1. We recommend that the Chief Financial Officer verify that all differences
between USAID and the Department of the Treasury are researched and resolved in a timely
manner in accordance with Treasury financial manual reconciliation procedures.

Status: This recommendation is still pending final action. The Chief Financial Officer will focus
on researching and resolving the $114 million difference and all outstanding differences more
than a year old in the Web-based Cash Reconciliation System (eCART. The target completion
date is September 30, 2015.

Recommendation 2. We recommend that the Chief Financial Officer augment its general ledger
reconciliation processes to ensure that (a) the postings in the general ledger are reconciled
periodically with the postings in the subsidiary ledgers, (b) general ledger differences are
researched and resolved in a timely manner, (c) errors are corrected in a timely manner to
maintain accurate account balances in the general ledger, and (d) detailed documentation of
analysis and reconciliations supporting adjustments are maintained and easily retrievable for
examination.

Status: This recommendation was closed on September 30, 2013.

Recommendation 3. We recommend that the Chief Financial Officer coordinate with the
Office of Acquisition and Assistance and relevant Bureau Assistant Administrators to
(a) initiate targeted reviews of awards that are more than 3 years old with unliquidated
obligation balances and (b) verify that obligation managers conduct the periodic reviews
required to initiate deobligation action on unliquidated obligations.

Status: This recommendation is still pending final action. The Chief Financial Officer indicated
that the Agency would continue to identify and reduce contracts and obligations currently in
closeout. Management has contracted with an independent accounting firm to assist in the
review process. The target completion date is September 30, 2014.

Recommendation 4. We recommend that the Chief Financial Officer (a) continue to upgrade
controls at missions, (b) update Automated Directives System 636 to include the desktop
procedures implemented by the Cash Management and Payment Division, (c) clarify when an
outstanding advance should be reported to the contracting or agreement officer for debt
determination, (d) research and resolve all outstanding amounts that remain in the Department



                                                                                              23
                                                                                    Appendix III
                                                                                    Page 2 of 3

of Health and Human Services synchronization report from prior years, and (e) implement a
review and approval process to reclassify expenses as advances for amounts that were
reported by the Department of Health and Human Services Payment Management System.

Status: This recommendation is still pending final action. The Chief Financial Officer indicated
that the Agency will continue to strengthen and improve business processes to reduce its
outstanding advances. USAID will take the following actions:

(a)   Continue to upgrade controls at missions.

(b)   Revise ADS 636, “Program Advances,” to include internal mandatory references related to
      procedures that enhance the liquidation process for both Washington and the missions.

(c)   Revise ADS 636, “Program Advances,” to clarify when an outstanding advance should be
      reported to the contracting or agreement officer for debt determination, and cross-
      reference ADS 636 and 625.

(d)   Resolve items totaling $2.9 million (remaining after USAID resolved a $4.9 million item)
      related to nonpooled advances.


Recommendation 5. We recommend that the Chief Financial Officer coordinate with the Office
of Acquisition and Assistance to augment procedures to verify that contracting officer’s
representatives review, validate, and modify as necessary the quarterly accounts payable and
accrued expenses generated by the Accrual Reporting System before that information is
recorded in the general ledger.

Status: This recommendation was closed on March 31, 2013.

Recommendation 6. We recommend that the Chief Financial Officer in coordination with the
Office of Human Resources ensure: (a) that personnel files are updated to reflect all personnel
actions and (b) that a reconciliation with National Finance Center records is performed to ensure
that bi-weekly and annual salary pay caps are not exceeded.

Status: This recommendation is still pending final action. The Chief Financial Officer will
coordinate with the Office of Human Resources to (a) ensure that personnel files are updated by
eliminating the backlog of personnel actions and (b) work with NFC to implement a system edit
to assist in preventing annual salary payments above the aggregate pay cap. The target
completion date is June 30, 2014.

Status of 2011 Findings and Recommendations
Recommendation 2. We recommend that the Office of the Chief Financial Officer (a) develop
and implement a plan to complete its reconciliation of loan balances in the Phoenix accounting
system with the balances maintained in the PNC Enterprise Loan System and (b) ensure that all
Enterprise Loan System transactions transmitted to Phoenix via the interface are properly
accounted for and recorded in Phoenix.

Status: This recommendation was closed on April 30, 2013.




                                                                                              24
                                                                                        Appendix III
                                                                                        Page 3 of 3

Recommendation 3. We recommend that the Chief Financial Officer coordinate with the Office
of Acquisition and Assistance and with Bureau Assistant Administrators to (a) initiate targeted
reviews of non-GLAAS obligations and batch obligations for automatic deobligation for small-
dollar obligation balances, travel, operating-expense-funded obligations and program-funded
obligations that are older than 5 years; (b) utilize the services of independent public accounting
firms to expedite the close out audit process; and (c) require obligation officials to include
period-of-performance dates for all procurement type awards.

Status: This recommendation is still pending final action. The Office of the Chief Financial
Officer, in coordination with the Office of Acquisition and Assistance, will continue to identify and
reduce contracts and obligations in closeout, and research the use of additional sources to
expedite review. As noted, the Office of the Chief Financial Officer will also collaborate with the
Office of Acquisition and Assistance to evaluate alternative service providers to expedite audit
closeout. The Office of the Chief Financial Officer will continue to target specific areas for
batched processing, including low-dollar, miscellaneous, and travel-related obligations. The
target completion date is September 30, 2014.

Status of 2010 Findings and Recommendations
Recommendation 1. We recommend that the Chief Financial Officer (a) provide changes in its
crosswalk to the Department of Health and Human Services in a timely manner to ensure that
the Department of Health and Human Services charges all third-party transactions to
appropriate appropriations; and (b) research and resolve all suspense items within the time
stipulated by the Department of Treasury.

Status: This recommendation is still pending final action. The Chief Financial Officer noted that
the auditors acknowledged progress in the reconciliation of current transactions with the
implementation of the fund balance reconciliation tool. The Chief Financial Officer will focus on
eliminating legacy differences, correcting the Health and Human Services crosswalk, and
clearing items from the suspense accounts within 60 days. The target completion date is
December 31, 2015.

Status of 2005 Findings and Recommendations

In the FY 2005 audit report, OIG recommended that USAID’s Chief Financial Officer direct the
Financial Management Office to conduct quarterly intragovernmental reconciliations of activity
and balances with its trading partners in accordance with the requirements of the Federal
Intragovernmental Transactions Accounting Policies Guide, issued by the Department of
Treasury’s Financial Management Service.

Status: OIG has made no recommendations in the last few years because USAID is
continuously researching intragovernmental activity and developing new tools to improve its
reconciliation process to eliminate the differences.




                                                                                                  25
FINANCIAL STATEMENTS

 CONSOLIDATED BALANCE SHEET
 As of September 30, 2013 and 2012
 (In Thousands)


                                                                                                     2013                   2012
                                                                                                                         (Restated)
 ASSETS:
 	Intragovernmental:
 		 Fund Balance with Treasury (Notes 2, 15 and 20)                                               $	30,810,158           $	28,946,169
 		 Accounts Receivable (Note 3)                                                                            27                     30
 		 Other Assets (Note 4)                                                                               76,977                 85,396
 	   Total Intragovernmental                                                                         30,887,162             29,031,595

 	   Cash and Other Monetary Assets (Note 5)                                                            343,296                349,069
 	   Accounts Receivable, Net (Note 3)                                                                   40,106                 88,239
 	   Direct Loans and Loan Guarantees, Net (Note 6)                                                   2,574,346              2,773,576
 	   Inventory and Related Property, Net (Note 7)                                                        35,996                 29,607
 	   General Property, Plant, and Equipment, Net (Notes 8 and 9)                                         64,785                 76,360
 	   Advances (Notes 4 and 20)                                                                          441,386                457,807
 	   Total Assets                                                                                 $	34,387,077           $	32,806,253

 LIABILITIES:
 	Intragovernmental:
 		 Accounts Payable (Notes 10 and 15)                                                            $	42,534               $	121,730
 		 Debt (Note 11)                                                                                    481,000                478,304
 		 Liability for Capital Transfers to the General Fund of the Treasury (Note 11)                   2,391,590              2,613,998
 		 Other Liabilities (Note 12)                                                                       724,053                756,861
 	   Total Intragovernmental                                                                          3,639,177              3,970,893

 	   Accounts Payable (Note 10)                                                                       1,570,342              1,867,144
 	   Loan Guarantee Liability (Notes 6 and 10)                                                        1,846,853              2,012,358
 	   Federal Employee and Veteran’s Benefits (Note 13)                                                   26,047                 23,582
 	   Other Liabilities (Notes 10, 12, and 13)                                                           541,855                545,576
 	   Total Liabilities                                                                               7,624,274              8,419,553

 	   Commitments and Contingencies (Note 14)

 NET POSITION:
 	 Unexpended Appropriations (Note 20)                                                               22,745,711             21,286,109
 	 Cumulative Results of Operations                                                                   4,017,092              3,100,591
 	   Total Net Position (Notes 15 and 20)                                                           26,762,803             24,386,700


 Total Liabilities and Net Position                                                               $	34,387,077           $	32,806,253

The accompanying notes are an integral part of these statements.


                                                                                                                                         26
                                                                       USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION          79
 CONSOLIDATED STATEMENT OF NET COST
 For the Years Ended September 30, 2013 and 2012
 (In Thousands)


 OBJECTIVES                                                                  2013             2012
                                                                                           (Restated)
 Peace and Security:
 	   Gross Costs                                                         $	700,792        $	688,584
 	   Less: Earned Revenue                                                       (3,296)          (3,125)
 	   Net Program Costs                                                        697,496          685,459

 Governing Justly and Democratically:
 	   Gross Costs                                                              935,670         2,790,514
 	   Less: Earned Revenue                                                       (3,037)          (9,092)
 	   Net Program Costs                                                        932,633         2,781,422

 Investing in People:
 	   Gross Costs                                                             2,909,743        3,051,384
 	   Less: Earned Revenue                                                      (43,439)       (619,153)
 	   Net Program Costs                                                       2,866,304        2,432,231

 Economic Growth:
 	   Gross Costs                                                             4,171,403        3,878,650
 	   Less: Earned Revenue                                                    (812,383)        (308,266)
 	   Net Program Costs                                                       3,359,020        3,570,384

 Humanitarian Assistance:
 	   Gross Costs                                                             1,616,207        1,353,613
 	   Less: Earned Revenue                                                       (7,674)          (6,129)
 	   Net Program Costs                                                       1,608,533        1,347,484

 Operating Unit Management:
 	   Gross Costs                                                              900,855          677,233
 	   Less: Earned Revenue                                                       (5,223)          (3,095)
 	   Net Program Costs                                                        895,632          674,138
 Net Cost of Operations (Notes 16, 17, and 20)                           $	10,359,618     $	11,491,118

The accompanying notes are an integral part of these statements.




                                                                                                           27

80           USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 For the Years Ended September 30, 2013 and 2012
 (In Thousands)


                                                                                                  2013                   2012
                                                                                                                      (Restated)

 Cumulative Results of Operations:
 	     Beginning Balances                                                                     $	3,102,471            $	2,029,230
 		       Adjustments – Correction of Errors                                                         (1,880)         	–
 	     Beginning Balances, as Adjusted                                                            3,100,591              2,029,230

 Budgetary Financing Sources:
 		Appropriations Used                                                                           10,905,583             11,551,390
 		Nonexchange Revenue                                                                        	–                               368
 		       Donations and Forfeitures of Cash and Cash Equivalents                                   186,146                225,759
 		Transfers-in/out Without Reimbursement                                                                163         	–
 Other Financing Sources (Non-Exchange):
 	     Transfers-in/out Without Reimbursement                                                      142,254                754,968
 	     Imputed Financing                                                                            41,973                 29,994
 	     Total Financing Sources                                                                   11,276,119             12,562,479
 	     Net Cost of Operations                                                                   (10,359,618)           (11,491,118)
 	     Net Change                                                                                  916,501               1,071,361

 Cumulative Results of Operations (Note 20)                                                       4,017,092              3,100,591

 Unexpended Appropriations:
 	 Beginning Balance                                                                             21,631,982             21,202,085
 		       Adjustments – Correction of Errors                                                       (345,873)         	–
 	     Beginning Balance, as Adjusted                                                            21,286,109             21,202,085

 Budgetary Financing Sources:
 		Appropriations Received                                                                       12,188,566             11,536,737
 		Appropriations Transferred in/out                                                               284,516                 75,479
 		Other Adjustments                                                                               (107,897)               23,198
 		Appropriations Used                                                                          (10,905,583)           (11,551,390)
 		       Total Budgetary Financing Sources                                                       1,459,602                84,024
 	     Total Unexpended Appropriations                                                           22,745,711             21,286,109
     Net Position                                                                             $	26,762,803           $	24,386,700


The accompanying notes are an integral part of these statements.




                                                                                                                                      28


                                                                   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION           81
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2013 and 2012
(In Thousands)


                                                                                         2013                           2012
                                                                                                                     (Restated)
                                                                                          Non-Budgetary                    Non-Budgetary
                                                                          Budgetary       Credit Reform     Budgetary      Credit Reform
Budgetary Resources:
	 Unobligated Balance, Brought Forward, October 1                         $	8,075,315      $	1,878,293      $	7,875,446    $	2,421,365
	 Adjustment to Unobligated Balance Brought Forward, October 1 (+ or -)   	–               	–               	–             	–
		 Unobligated Balance Brought Forward, October 1, as Adjusted              8,075,315        1,878,293        7,875,446      2,421,365
	 Recoveries of Prior Year Unpaid Obligations                                639,688             200           472,000            20
	 Other Changes in Unobligated Balance (+ or -)                             (274,917)      	–                 (118,331)          (71)
	 Unobligated Balance from Prior Year Budget Authority, Net                8,440,086       1,878,493         8,229,115     2,421,314
	 Appropriations (Discretionary and Mandatory)                            11,964,208       	–               11,575,665           (18)
	 Borrowing Authority (Discretionary and Mandatory) (Note 11)             	–                   2,696        	–             	–
	 Contract Authority (Discretionary and Mandatory)                        	–               	–               	–             	–
	 Spending Authority from Offsetting Collections (Discretionary
		and Mandatory)                                                             1,339,770           185,173         812,068          209,557
Total Budgetary Resources                                                 $	21,744,064     $	2,066,362      $	20,616,848   $	2,630,853

Status of Budgetary Resources:
	 Obligations Incurred                                                    $	12,048,248     $	204,257        $	12,541,533   $	752,560
	 Unobligated Balance, End of Year:
   	Apportioned                                                           8,616,699          222,522        7,398,435        309,839
   	 Exempt from Apportionment                                            	–               	–               	–             	–
   	Unapportioned                                                         1,079,117        1,639,583          676,880      1,568,454
	    Total Unobligated Balance, End of Year                                  9,695,816          1,862,105      8,075,315        1,878,293
Total Budgetary Resources                                                  21,744,064      $	2,066,362      $	20,616,848   $	2,630,853

                                                                                                                           (continued on next page)




                                                                                                                                        29
    82           USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
 COMBINED STATEMENT OF BUDGETARY RESOURCES (continued)
 For the Years Ended September 30, 2013 and 2012
 (In Thousands)


                                                                                                         2013                             2012
                                                                                                                                       (Restated)
                                                                                                          Non-Budgetary                       Non-Budgetary
                                                                                      Budgetary           Credit Reform     Budgetary         Credit Reform

 Change in Obligated Balance:
 	 Unpaid Obligations:                                                                	                    	                	                 	
 		     Unpaid Obligations, Brought Forward, October 1 (Gross)                        $	18,338,078         $	1,300          $	17,505,109      $	(282)
 		     Adjustment to Unpaid Obligations, Start of Year (+ or -)                              (64,892)              (704)   	–                	–
 		Obligations Incurred                                                                   12,048,248            204,257         12,541,533        752,560
 		     Outlays (Gross) (-) (Note 20)                                                     (11,116,252)          (200,786)       11,301,456        (751,662)
 		     Actual Transfers, Unpaid Obligations (Net) (+ or -)                                   32,120       	–               	–                	–
 		     Recoveries of Prior Year Unpaid Obligations (-)                                     (639,688)               (200)         (472,000)            (20)
 		     Unpaid Obligations, End of Year                                                   18,597,614               3,867        18,273,186            596
 	   Uncollected Payments:
 		     Uncollected Payments, Federal Sources, Brought Forward, Oct 1 (-)                     (40,480)               35            (34,395)            35
 		     Adjustment to Uncollected Payments, Federal Sources, Start of Year (+ or -)   	–                   	–               	–                	–
 		     Change in Uncollected Payments, Federal Sources (+ or -)                              (26,900)               (35)           (6,085)   	–
 		     Actual Transfers, Uncollected Payments, Federal Sources (Net) (+ or-)         	–                   	–               	–                	–
 		     Uncollected Payments, Federal Sources, End of Year (-)                                (67,380)     	–                      (40,480)            35

 Budget Authority and Outlays, Net:
    Budget Authority, Gross (Discretionary and Mandatory)                             $	13,303,979         $	187,868        $	12,387,732      $	209,540
    Actual Offsetting Collections (Discretionary and Mandatory) (-)                     (1,236,285)          (185,137)        (1,077,951)       (209,558)
    Change in Uncollected Customer Payments from Federal Sources
       (Discretionary and Mandatory) (+ or -)                                                 (26,900)               (35)           (6,085)   	–
     Anticipated Offsetting Collections (Discretionary and Mandatory) (+ or -)        	–                   	–               	–                	–
     Budget Authority, Net (Discretionary and Mandatory)                              $	12,040,794         $	2,696          $	11,303,696      $	(18)

     Outlays, Gross (Discretionary and Mandatory) (Note 20)                           $	11,116,252         $	200,786        $	11,301,456      $	751,662
     Actual Offsetting Collections (Discretionary and Mandatory)                        (1,236,285)          (185,137)        (1,077,951)       (209,558)
     Outlays, Net (Discretionary and Mandatory)                                          9,879,967             15,649         10,223,505         542,104
     Distributed Offsetting Receipts (-)                                                  (381,293)        	–                   (923,914)     	–
 Agency Outlays, Net (Discretionary and Mandatory)                                    $	9,498,674          $	15,649         $	9,299,591       $	542,104

The accompanying notes are an integral part of these statements.




                                                                                                                                                      30

                                                                             USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                      83
NOTES TO THE
FINANCIAL STATEMENTS

                  NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

                   A. BASIS OF PRESENTATION                                Economic Support Fund; Development Assistance;
                   The accompanying principal financial statements         International Disaster Assistance; Global Health
                   report USAID’s financial position and results           and Child Survival; Complex Crisis Fund; Transi-
                   of operations. They have been prepared using            tion Initiatives; and Direct and Guaranteed Loan
                   USAID’s books and records in accordance with            Programs. This classification is consistent with
                   Agency accounting policies, the most significant of     the budget of the United States.
                   which are summarized in this note. The statements       Assistance for Europe, Eurasia,
                   are presented in accordance with the guidance           and Central Asia
                   and requirements of the Office of Management
                   and Budget (OMB) Circular A-136, Financial              Funds appropriated under this heading are consid-
                   Reporting Requirements.                                 ered to be economic assistance under the Foreign
                                                                           Assistance Act of 1961.
                   USAID accounting policies follow generally
                   accepted accounting principles for the Federal          This account provides funds for a program of assis-
                   government, as established by the Federal               tance to the independent states that emerged from
                   Accounting Standards Advisory Board (FASAB).            the former Soviet Union. These funds support the
                   The FASAB has been recognized by the American           U.S. foreign policy goals of consolidating improved
                   Institute of Certified Public Accountants (AICPA)       U.S. security; building a lasting partnership with
                   as the official accounting standard setting authority   the new independent states; and providing mutual
                   for the Federal government. These standards have        access to markets, resources, and expertise.
                   been agreed to, and published by the Director of
                   the OMB, the Secretary of the Treasury, and the         Civilian Stabilization Initiative
                   Comptroller General.
                                                                           This fund provides support for the necessary
                   B. REPORTING ENTITY                                     expenses needed to establish, support, maintain,
                                                                           mobilize, and deploy a civilian response corps in
                   Established in 1961 by President John F. Kennedy,       coordination with the USAID. This fund is also
                   USAID is the independent U.S. Government                used for related reconstruction and stabilization
                   agency that provides economic development and           assistance to prevent or respond to conflict or civil
                   humanitarian assistance to advance United States        strife in foreign countries or regions, or to enable
                   economic and political interests overseas.              transition from such unstable conditions.

                   PROGRAMS                                                Capital Investment Fund

                   The principal statements present the financial          This fund provides for the necessary expenses
                   activity of various programs and accounts managed       of overseas construction and related costs,
                   by USAID. The programs include Assistance               and for procurement and enhancement of
                   for Europe, Eurasia, and Central Asia; Civilian         information technology and related capital
                   Stabilization Initiative; Capital Investment Fund;      investments. Specifically, this fund provides


                                                                                                                           31
84   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
assistance in supporting the Global Acquisition           Complex Crisis Fund
and Assistance System (GLAAS).
                                                          This fund provides for necessary expenses under
Economic Support Fund                                     of the Foreign Assistance Act of 1961 to support
                                                          programs and activities around prevention of, or
The Economic Support Fund (ESF) supports                  response to emerging or unforeseen complex crises
U.S. foreign policy objectives by providing               overseas.
economic assistance to allies and countries in
transition to democracy. Programs funded through          Transition Initiatives
this account promote stability and U.S. security
interests in strategic regions of the world.              This fund provides for humanitarian programs that
                                                          provide post conflict assistance to victims of both
Development Assistance                                    natural and man-made disasters. The program
                                                          supports U.S. foreign policy objectives by helping
This program provides economic resources to
                                                          local partners advance peace and democracy
developing countries with the aim of bringing the
                                                          in priority countries in crisis. Seizing critical
benefits of development to the poor. The program
                                                          windows of opportunity, the Office of Transition
promotes broad-based, self-sustaining economic
                                                          Initiatives (OTI) works on the ground to provide
growth and opportunity, and supports initia-
                                                          fast, flexible, short-term assistance targeted at key
tives intended to stabilize population growth,
                                                          political transition and stabilization needs.
protect the environment and foster increased
democratic participation in developing countries.         Direct and Guaranteed Loans
The program is concentrated in those areas in
which the United States has special expertise and         •	 Direct Loan Program
which promise the greatest opportunity for the               These loans are authorized under the Foreign
poor to better their lives.                                  Assistance Act, various predecessor agency
                                                             programs, and other foreign assistance legisla-
International Disaster Assistance                            tion. Direct Loans are issued in both U.S.
Funds for the International Disaster Assistance              dollars and the currency of the borrower.
Program provide relief, rehabilitation, and                  Foreign currency loans made “with maintenance
reconstruction assistance to foreign countries struck        of value” places the risk of currency devaluation
by disasters such as famines, floods, hurricanes and         on the borrower, and are recorded in equivalent
earthquakes. The program also provides assistance in         U.S. dollars. Loans made “without mainte-
disaster preparedness, prevention and mitigation; and        nance of value” place the risk of devaluation on
providing emergency commodities and services for             the U.S. Government, and are recorded in the
immediate healthcare and nutrition. Additionally,            foreign currency of the borrower.
this fund supports the capability to provide timely       •	 Urban and Environmental Program
emergency response to disasters worldwide.
                                                             The Urban and Environmental (UE) Program
Global Health and Child Survival                             extends guaranties to U.S. private investors
                                                             who make loans to developing countries, to
This fund provides economic resources to developing          assist them in formulating and executing sound
countries in support of programs to improve infant           housing and community development policies
and child nutrition, with the aim of reducing infant         that meet the needs of lower income groups.
and child mortality rates; to reduce HIV transmis-
sion and the impact of the HIV/AIDS pandemic in           •	 Micro and Small Enterprise Development
developing countries; to reduce the threat of infec-         Program
tious diseases of major public health importance such        The Micro and Small Enterprise Development
as polio, malaria or tuberculosis; and to expand access      (MSED) Program was established to support
to quality basic education for girls and women.              private sector activities in developing countries by
                                                                                                                          32


                                                              USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION    85
                      providing direct loans and loan guarantees to local      Under this program, the U.S. Government
                      micro and small enterprises. Although the MSED           was authorized to issue an amount not to
                      program is still active, most of USAID’s new loan        exceed $2 billion in loan guarantees to Egypt
                      guarantee activity is managed through the Devel-         during the period beginning March 1, 2003
                      opment Credit Authority (DCA) Program.                   and ending September 30, 2005. New loan
                                                                               guarantees totaling $1.25 billion were issued in
                   •	 Development Credit Authority                             FY 2005 before the expiration of the program.
                      The first obligations for USAID’s Develop-
                      ment Credit Authority were made in FY 1999.           •	 Loan Guarantee to Tunisia Program
                      The DCA allows missions and other offices to             The Loan Guarantee to Tunisia Program was
                      use loans and loan guarantees to achieve their           established under Title III of the Depart-
                      development objectives when it can be shown that         ment of State, Foreign Operations, and
                      (1) the project generates enough revenue to cover        Related Programs Appropriations Act, 2012,
                      the debt service including USAID fees, (2) there         Division I of Pub. L. No. 112-74, to provide
                      is at least 50% risk-sharing with a private-sector       support for the Republic of Tunisia through
                      institution, and (3) the DCA guarantee addresses         a loan guarantee. Under this program, the
                      a financial market failure in-country and does not       U.S. Government is authorized to issue guaran-
                      “crowd-out” private sector lending. The DCA can          tees with respect to the payment obligations of
                      be used in any sector and by any USAID operating         Tunisia for Notes, for which USAID’s budget
                      unit whose project meets the DCA criteria.               cost, calculated in accordance with Federal
                      DCA projects are approved by the Agency Credit           Credit Reform Act of 1990, would not exceed
                      Review Board and the Chief Financial Officer.            $30 million. Using this budget cost as a basis
                                                                               for determining the loan guarantee, Tunisia
                   •	 Israel Loan Guarantee Program                            issued Notes totaling $485 million in FY 2012.
                      Congress authorized the Israel Loan Guarantee
                      Program in Section 226 of the Foreign Assistance      FUND TYPES
                      Act to support the costs for immigrants reset-
                                                                            The principal statements include the accounts of all
                      tling to Israel from the former Soviet Union,
                                                                            funds under USAID’s control. Most of the fund
                      Ethiopia, and other countries. Under this
                                                                            accounts relate to general fund appropriations.
                      program, the U.S. Government guaranteed the
                                                                            USAID also has special funds, revolving funds, trust
                      repayment of up to $10 billion in loans from
                                                                            funds, deposit funds, a capital investment fund,
                      commercial sources. Borrowing was completed
                                                                            receipt accounts, and budget clearing accounts.
                      under the program during FY 1999. Approxi-
                      mately $9.2 billion was guaranteed, of which          General fund appropriations and the Special fund
                      $7.0 billion remains outstanding.                     are used to record financial transactions under
                                                                            Congressional appropriations or other authoriza-
                      In FY 2003, Congress authorized a second Israel
                                                                            tion to spend general revenue.
                      Loan Guarantee Program of up to $9.0 billion
                      to support Israel’s comprehensive economic plan       Revolving funds are established by law to finance
                      to overcome economic difficulties and create          a continuing cycle of operations, with receipts
                      conditions for higher and sustainable growth.         derived from such operations usually available in
                      Four billion one hundred million dollars has          their entirety for use by the fund without further
                      been borrowed under this program, of which            action by Congress.
                      the entire $4.1 billion remains outstanding.
                                                                            Trust funds are credited with receipts generated
                   •	 Loan Guarantees to Egypt Program                      by the terms of the underlying trust agreement or
                      The Loan Guarantees to Egypt Program was              statute. At the point of collection, these receipts
                      established under the Emergency Wartime               may be available or unavailable, depending upon
                      Supplemental Appropriations Act of 2003.              statutory spending authority.

                                                                                                                           33


86   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
Deposit funds are established for (1) amounts            not available for obligations or expenditure for any
received for which USAID is acting as a fiscal           purpose and are returned to Treasury.
agent or custodian, (2) unidentified remittances,
                                                         The “Consolidated Appropriations Act” signed
(3) monies withheld from payments for goods or
                                                         into law as Pub. L. No. 112-74 provides to USAID
services received, and (4) monies held awaiting
                                                         extended authority to obligate funds. USAID’s appro-
distribution on the basis of legal determination.
                                                         priations have consistently provided essentially similar
The capital investment fund contains no-year (non-       authority, commonly known as “7011/511” authority,
expiring) funds to provide the Agency with greater       a name that is based on references to the previous
flexibility to manage investments in technology          appropriations acts. Under this authority, funds shall
systems and facility construction than allowed under     remain available for obligation for an extended period
the annual appropriation for operating expenses.         if such funds are initially obligated within their initial
                                                         period of availability.
C. BASIS OF ACCOUNTING
                                                         E. REVENUES AND OTHER
Transactions are recorded on both an accrual             FINANCING SOURCES
and budgetary basis. Under the accrual basis,
revenues are recognized when earned and expenses         USAID receives the majority of its funding through
are recognized when a liability is incurred,             congressional appropriations—annual, multiyear, and
without regard to receipt or payment of cash.            no-year (non-expiring) appropriations—that may
Budgetary accounting facilitates compliance with         be used within statutory limits. Appropriations are
legal constraints on, and controls of, the use of        recognized as a financing source (i.e., Appropriations
federal funds. The accompanying Balance Sheet,           used) on the Statement of Changes in Net Position
Statement of Net Cost, and Statement of Changes          at the time the related program or administrative
in Net Position have been prepared on an accrual         expenses are incurred. Appropriations expended for
basis. The Statement of Budgetary Resources              capitalized property and equipment are not recog-
has been prepared in accordance with budgetary           nized as expenses. In addition to funds warranted
accounting rules.                                        directly to USAID, the agency also receives allocation
                                                         transfers from the Department of Agriculture (USDA)
D. BUDGETS AND BUDGETARY                                 Commodity Credit Corporation, the Executive
ACCOUNTING                                               Office of the President, the Department of State,
                                                         and Millennium Challenge Corporation (MCC).
The components of USAID’s budgetary resources
include current budgetary authority (that is,            Additional financing sources for USAID’s various
appropriations and borrowing authority) and              credit programs and trust funds include amounts
unobligated balances remaining from multiyear            obtained through collection of guaranty fees, interest
and no-year budget authority received in prior           income on rescheduled loans, penalty interest on
years. Budget authority is the authorization             delinquent balances, permanent indefinite borrowing
provided by law to enter into financial obligations      authority from the U.S. Treasury, proceeds from the
that result in immediate or future outlays of            sale of overseas real property acquired by USAID, and
federal funds. Budgetary resources also include          advances from foreign governments and international
reimbursement and other income (that is, spending        organizations.
authority from offsetting collections credited to an
                                                         Revenues are recognized as financing sources to the
appropriation or fund account) and adjustments
                                                         extent that they are received by USAID from other
(that is, recoveries of prior year obligations).
                                                         agencies, other governments and the public. Imputed
Unobligated balances associated with appropria-          revenues are reported in the financial statements to
tions that expire at the end of the fiscal year remain   offset imputed costs. Amounts received from other
available for obligation adjustments, but not new        Federal agencies under reimbursable agreements are
obligations, for five years until that account is        recognized as revenue as related expenditures are
canceled. When accounts are canceled amounts are         incurred.
                                                                                                                         34

                                                             USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION    87
                   F. FUND BALANCE WITH                                   States Government of making the loan. This cost,
                   THE U.S. TREASURY                                      known as “subsidy”, takes into account all cash
                                                                          inflows and outflows associated with the loan,
                   Cash receipts and disbursements are processed by
                                                                          including the interest rate differential between the
                   the U.S. Treasury. The fund balances with Treasury
                                                                          loans and Treasury borrowing, the estimated
                   are primarily appropriated funds that are available
                                                                          delinquencies and defaults net of recoveries, and
                   to pay current liabilities and finance authorized
                                                                          offsets from fees and other estimated cash flows.
                   purchase commitments, but they also include
                                                                          This allowance is re-estimated when necessary and
                   revolving, deposit, and trust funds.
                                                                          changes reflected in the operating statement.
                   G. FOREIGN CURRENCY                                    Loans have been made in both U.S. dollars and
                   The Direct Loan Program maintains foreign              foreign currencies. Loans extended in foreign
                   currency funds, which are used to disburse loans       currencies can be with or without “Maintenance of
                   in certain countries. Those balances are reported      Value” (MOV). Foreign currency exchange gain or
                   at the U.S. dollar equivalents using the exchange      loss is recognized on those loans extended without
                   rates prescribed by the U.S. Treasury. A gain          MOV, and reflected in the net credit programs
                   or loss on currency conversion is recognized for       receivable balance.
                   any change in valuation of foreign currencies          Credit program receivables also include origination
                   at year-end. Additionally, some USAID host             and annual fees on outstanding guarantees, interest
                   countries contribute funds for the overhead            on rescheduled loans and late charges. Claims
                   operation of the host mission and the execution of     receivables (subrogated and rescheduled) are due
                   USAID programs. These funds are held in trust          from foreign governments as a result of defaults for
                   and reported in U.S. dollar equivalents on the         pre-1992 guaranteed loans. Receivables are stated net
                   Balance Sheet and Statement of Net Costs.              of an allowance for uncollectible accounts that is
                                                                          determined using an OMB approved net present
                   H. ACCOUNTS RECEIVABLE
                                                                          value default methodology.
                   Accounts receivable consist of amounts due mainly
                                                                          While estimates of uncollectible loans and interest
                   from foreign governments but also from other
                                                                          are made using methods prescribed by OMB, the
                   Federal agencies and private organizations. USAID
                                                                          final determination as to whether a loan is
                   regards amounts due from other Federal agencies as
                                                                          collectible is also affected by actions of other
                   100 percent collectible. The Agency establishes an
                                                                          federal government agencies.
                   allowance for uncollectible accounts receivable for
                   non-loan or revenue generating sources based on a      J. ADVANCES
                   historical analysis of collectability.
                                                                          Funds disbursed before expenditures are incurred
                   I. DIRECT LOANS AND LOAN                               are recorded as advances. Most advances consist of
                   GUARANTEES                                             funds disbursed under letters of credit to contrac-
                                                                          tors and grantees. The advances are liquidated and
                   Loans are accounted for as receivables after funds     recorded as expenses upon receipt of expenditure
                   have been disbursed. For loans obligated before        reports from the recipients.
                   October 1, 1991 (the pre-credit reform period), loan
                   principal, interest, and penalties receivable are      K. INVENTORY AND RELATED
                   reduced by an allowance for estimated uncollectible    PROPERTY
                   amounts. The allowance is estimated based on a net
                   present value method prescribed by OMB that takes      USAID’s inventory and related property are
                   into account country risk and projected cash flows.    comprised of life essential materials and supplies.
                                                                          The Agency has materials and supplies in reserve
                   For loans obligated on or after October 1, 1991, the   for foreign disaster assistance stored at strategic sites
                   loans receivable are reduced by an allowance equal     around the world. These include tents, disaster kits,
                   to the net present value of the cost to the United     field packs, and water purification units.
                                                                                                                             35

88   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
Agency supplies held in reserve for future use are        N. LIABILITIES FOR LOAN
items not readily available in the market, or for         GUARANTEES
which there is more than a remote chance that
                                                          The Credit Reform Act (CRA) of 1990, which
the supplies will be needed, but not in the normal
                                                          became effective on October 1, 1991, significantly
course of operations. Their valuation is based on
                                                          changed the manner in which USAID finances the
cost and they are not considered “held for sale.”
                                                          activities of loan programs. The main purpose of
USAID has no supplies categorizable as excess,
                                                          the CRA was to more accurately measure the cost
obsolete, or unserviceable operating materials
                                                          of Federal credit programs and to place the cost of
and supplies.
                                                          such programs on a budgetary basis equivalent to
L. PROPERTY, PLANT AND                                    other Federal spending. Consequently,
EQUIPMENT                                                 commencing in fiscal 1992, USAID can only make
                                                          new loans or guarantees with an appropriation
USAID capitalizes all property, plant and                 available to fund the cost of making the loan or
equipment that have an acquisition cost of $25,000        guarantee. This cost is known as “subsidy.”
or greater and a useful life of two years or more.
Acquisitions that do not meet these criteria are          For USAID’s loan guarantee programs, when
recorded as operating expenses. Assets are capital-       guarantee commitments are made, an obligation
ized at historical cost, depending on when the asset      for subsidy cost is recorded in the program
was put into production and depreciated using the         account. This cost is based on the net present value
straight-line method (mid-year and mid-quarter).          of the estimated net cash outflows to be paid by the
Real property is depreciated over 20 years, nonex-        Program as a result of the loan guarantees, except
pendable personal property is depreciated over            for administrative costs, less the net present value
three to five years, and capital leases are depreciated   of all cash inflows to be generated from those
according to the terms of the lease. The Agency           guarantees. When the loans are disbursed, the
uses land, buildings, and equipment that are              subsidy cost is disbursed from the program
provided by the General Services Administration.          account to a financing account.
Internal use software that has development costs
of $300,000 or greater is capitalized. Deferred           For loan guarantees made before the CRA (pre-
maintenance amounts are immaterial with respect           1992), the liability for loan guarantees represents
to the financial statements.                              an unfunded liability. Footnote 6 displays the
                                                          unfunded amounts separate from the post-1991
M. LIABILITIES                                            liabilities. The amount of unfunded liabilities also
                                                          represents a future funding requirement for
Liabilities represent the amount of monies or other
                                                          USAID. The liability is calculated using a reserve
resources that are likely to be paid by USAID as
                                                          methodology that is similar to the OMB-
the result of transactions or events that have already
                                                          prescribed method for post-1991 loan guarantees.
occurred. However, no liability can be paid by the
Agency without an appropriation or borrowing
                                                          O. ANNUAL, SICK, AND
authority. Liabilities for which an appropria-
                                                          OTHER LEAVE
tion has not been enacted are therefore classified
as liabilities not covered by budgetary resources         Annual leave is accrued as it is earned and the
(unfunded liabilities), and there is no certainty         accrual is reduced as leave is taken. Each year,
that the appropriations will be enacted. Also, these      the balance in the accrued annual leave account
liabilities can be nullified by the U.S. Government,      is adjusted to reflect current pay rates. To the
acting in its sovereign capacity.                         extent that current or prior year appropriations
                                                          are not available to fund annual leave earned but
                                                          not taken, funding will be obtained from future
                                                          financing sources. Sick leave and other types of
                                                          leave are expensed as taken.


                                                                                                                          36
                                                              USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION    89
                   P. RETIREMENT PLANS AND POST                              a contingent liability is recognized when similar
                   EMPLOYMENT BENEFITS                                       events occur except that the future outflow or
                                                                             other sacrifice of resources is more likely than not.
                   USAID recognizes its share of the cost of providing
                                                                             Footnote 14 identifies commitments and contin-
                   future pension benefits to eligible employees over
                                                                             gency liabilities.
                   the period of time the employees provide the related
                   services. The pension expense recognized in the           R. NET POSITION
                   financial statements equals the current service cost
                   for USAID employees for the accounting period             Net position is the residual difference between
                   less the amount contributed by the employees.             assets and liabilities. It is composed of unexpended
                   The measurement of the service cost requires the          appropriations and cumulative results of operations.
                   use of an actuarial cost method and assumptions.
                                                                             •	 Unexpended appropriations are the portion of
                   The Office of Personnel Management (OPM)
                                                                                the appropriations represented by undelivered
                   administers these benefits and provides the factors
                                                                                orders and unobligated balances.
                   that USAID applies to calculate the cost. The excess
                   of the pension expense over the amount contributed        •	 Cumulative results of operations are also part of
                   by USAID and employees represents the amount                 net position. This account reflects the net differ-
                   being financed directly through the Civil Service            ence between expenses and losses and financing
                   Retirement System and the Federal Employees                  sources, including appropriations, revenues and
                   Retirement System administered by OPM.                       gains, since the inception of the activity.
                   This cost is considered imputed cost to USAID.
                                                                             S. NON-ENTITY ASSETS
                   USAID recognizes a current period expense for
                   the future cost of post retirement health benefits        Non-entity fund balances are amounts in deposit
                   and life insurance for its employees while they are       fund accounts. These include such items as: funds
                   still working. USAID accounts for and reports             received from outside sources where the govern-
                   this expense in its financial statements in a manner      ment acts as fiscal agent, monies the government
                   similar to that used for pensions, with the exception     has withheld awaiting distribution based on legal
                   that employees and USAID do not make contribu-            determination, and unidentified remittances
                   tions to fund these future benefits.                      credited as suspense items outside the budget.
                                                                             For USAID, non-entity assets are minimal in
                   Federal employee benefit costs paid by OPM and            amount as reflected in Note 3, composed solely
                   imputed by USAID are reported on the Statement            of accounts receivable, net of allowances.
                   of Net Cost.
                                                                             T. AGENCY COSTS
                   Q. COMMITMENTS AND
                                                                             USAID costs of operations are comprised of
                   CONTINGENCIES
                                                                             program and operating expenses. USAID/
                   A contingency is an existing condition, situation         Washington program and Mission related expenses
                   or set of circumstances involving uncertainty as to       by objective are obtained directly from Phoenix,
                   possible gain or loss to USAID. The uncertainty           the Agency general ledger. A cost allocation model
                   will ultimately be resolved when one or more future       is used to distribute operating expenses, including
                   events occur or fail to occur. For pending, threat-       Management Bureau, Global Development
                   ened or potential litigation, a liability is recognized   Alliance, Trust Funds and Support Offices costs to
                   when a past transaction or event has occurred,            specific goals. Expenses related to Credit Reform
                   a future outflow or other sacrifice of resources is       and Revolving Funds are directly applied to specific
                   likely, and the related future outflow or sacrifice       agency goals based on their objectives.
                   of resources is measurable. For other litigations,



                                                                                                                               37


90   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
U. PARENT/CHILD REPORTING                                the allocation transfer but, per OMB guidance,
                                                         will report all activity relative to these allocation
USAID is a party to allocation transfers with other
                                                         transfers in USAID’s financial statements.
federal agencies as both a transferring (parent)
                                                         In addition to these funds, USAID allocates funds
entity and receiving (child) entity. Allocation
                                                         as the parent to:
transfers are legal delegations by one department
of its ability to obligate budget authority and          •	 Department of Energy
outlay funds to another department. A separate
fund account (allocation account) is created in          •	 Department of Interior
the U.S. Treasury as a subset of the parent fund
account for tracking and reporting purposes.             •	 Department of Labor
All allocation transfers of balances are credited        •	 Department of State
to this account, and subsequent obligations
and outlays incurred by the child entity are also        •	 Department of the Treasury
charged to this allocation account as they execute
the delegated activity on behalf of the parent           •	 Nuclear Regulatory Commission
entity. Generally, all financial activity related to
                                                         USAID receives allocation transfers as the
these allocation transfers (e.g., budget authority,
                                                         child from:
obligations, outlays) is reported in the financial
statements of the parent entity, from which the          •	 Department of State
underlying legislative authority, appropriations,
and budget apportionments are derived. Per OMB           •	 Executive Office of the President
guidance, child transfer activities are to be included   •	 Millennium Challenge Corporation
and parent transfer activities are to be excluded
in trial balances. Exceptions to this general rule       •	 Department of Agriculture, Commodity
affecting USAID include the Executive Office of             Credit Corporation
the President, for whom USAID is the child in




                                                                                                                         38


                                                             USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION    91
                   NOTE 2. FUND BALANCE WITH TREASURY
                   Fund Balance with Treasury as of September 30, 2013 and 2012 consisted of the following:

                    FUND BALANCE WITH TREASURY
                    (In Thousands)

                                                                                     2013                      2012
                    Fund Balance                                                                            (Restated)
                    Trust Funds                                                   $	258,885                 $	278,168
                    Revolving Funds                                                  2,423,613                 6,183,017
                    General Funds                                                   28,139,590                21,844,010
                    Other Funds                                                        (11,930)                  640,974
                    Total                                                         $	30,810,158              $	28,946,169


                                                                                     2013                      2012
                    Status of Fund Balance with Treasury                                                    (Restated)
                    Unobligated Balance
                    	Available                                                    $	8,839,221               $	7,708,272
                    	Unavailable                                                     2,718,700                 2,245,334
                    Obligated and Other Balances Not Yet Disbursed (Net)            19,252,237                18,992,563
                    Total                                                         $	30,810,158              $	28,946,169



                   Fund Balances with Treasury are the aggregate           of Budgetary Resources. The total available unob-
                   amounts of USAID’s accounts with Treasury for           ligated balance includes expired funds which are
                   which the agency is authorized to make payments.        available for upward adjustments, however they
                   Other Funds include credit program and operating        are not available to incur new obligations. In the
                   funds which are established to record amounts held      Combined Statement of Budgetary Resources the
                   for the loan guarantee and other operating funds.       expired fund balance is included in Unobligated
                                                                           Balances Not Available. The obligated and other
                   Unobligated balances become available when              balances not yet disbursed include other liabilities
                   apportioned by the OMB for obligation in the            without budgetary related obligations.
                   current fiscal year. Obligated and other balances
                   not yet disbursed (net) include balances for non-       USAID restated the FY 2012 financial statements
                   budgetary funds and unfilled customer orders            due to correction of error. Correction of the error
                   without advances. The unobligated and obligated         resulted in a $53 million decrease to Fund Balance
                   balances are reflected on the Combined Statement        with Treasury.




                                                                                                                           39

92   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 3. ACCOUNTS RECEIVABLE, NET
The primary components of USAID’s accounts receivable as of September 30, 2013 and 2012 are as follows:

 ACCOUNTS RECEIVABLE, NET
 (In Thousands)


                                                            Receivable           Allowance          Receivable Net     Receivable Net
                                                              Gross              Accounts                2013               2012
 Intragovernmental
 	   Appropriation Reimbursements from Federal Agencies     $	10                  	N/A                 $	10              $	10
 	   Accounts Receivable from Federal Agencies                   30,186           	N/A                      30,186          330,845
 	   Less Intra-Agency Receivables                              (30,169)          	N/A                     (30,169)        (330,825)
 Total Intragovernmental Accounts Receivable                        27            	N/A                            27            30
 Accounts Receivable from the Public                             77,749               (37,643)              40,106           88,239
 Total Receivables                                          $	77,776              $	(37,643)           $	40,133          $	88,269



Entity intragovernmental accounts receivable consist      The allowance for uncollectable accounts related to
of amounts due from other U.S. Government                 these receivables is calculated based on a historical
agencies. No allowance accounts have been estab-          analysis of collectability. Accounts receivable from
lished for the intragovernmental accounts receivable,     missions are collected and recorded to the respective
which are considered to be 100% collectible.              appropriation.

All other entity accounts receivable consist of           Interest receivable is calculated separately, and there
amounts managed by missions or USAID/                     is no interest included in the accounts receivable
Washington. These receivables consist of overdue          listed above.
advances, unrecovered advances, and audit findings.




                                                                                                                                   40



                                                              USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                93
                   NOTE 4. OTHER ASSETS
                   Advances as of September 30, 2013 and 2012 consisted of the following:

                    ADVANCES
                    (In Thousands)

                                                                                          2013                      2012
                                                                                                                 (Restated)
                    Intragovernmental
                    	   Advances to Federal Agencies                                    $	76,977                  $	85,396
                    Total Intragovernmental                                                 76,977                    85,396
                    	   Advances to Contractors/Grantees                                   327,035                   129,794
                    	   Advances to Host Country Governments and Institutions              115,239                   129,495
                    	   Advances, Other                                                       (888)                  198,518
                    Total with the Public                                                  441,386                   457,807
                    Total Other Assets                                                  $	518,363                 $	543,203


                   Intragovernmental Other Assets are comprised of              represent amounts advanced by USAID missions
                   advance payments to other Federal Government                 to host country governments and other in-country
                   entities for agency expenses not yet incurred and            organizations, such as educational institutions and
                   for goods and services not yet received.                     volunteer organizations. Advances, Other consist
                                                                                primarily of amounts advanced for living quarters,
                   Advances to Contractors/Grantees are amounts                 travel, and home service.
                   that USAID pays to cover immediate cash needs
                   related to program implementation until Contrac-             USAID restated the FY 2012 financial statements
                   tors/Grantees submit expense reports to USAID                due to correction of error. Correction of the error
                   and USAID records those expenses. Advances                   resulted in a $294.7 million decrease to Advances
                   to Host Country Governments and Institutions                 with the Public.


                   NOTE 5. CASH AND OTHER MONETARY ASSETS
                   Cash and Other Monetary Assets as of September 30, 2013 and 2012 are as follows:		

                    CASH AND OTHER MONETARY ASSETS
                    (In Thousands)

                    Cash and Other Monetary Assets                                        2013                       2012
                    	   Foreign Currencies                                             $	343,296                  $	349,069
                    Total Cash and Other Monetary Assets                               $	343,296                  $	 349,069


                   Foreign Currencies are related to Foreign Currency           does not have any non-entity cash or other
                   Trust Funds and this totaled $343.3 million in               monetary assets.
                   FY 2013 and $349 million in FY 2012. USAID




                                                                                                                               41
94   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NET
USAID operates the following loan and/or loan                    estimated defaults, fees, and other cash flows) associ-
guarantee programs:	                                             ated with direct loans and guarantees, is required by
                                                                 the Act to be recognized as an expense in the year
•	 Direct Loan Program (Direct Loan)                             in which the direct loan or guarantee is disbursed.
•	 Urban and Environmental Program (UE)                          Subsidy cost is calculated by agency program offices
                                                                 prior to obligation using a model prescribed by the
•	 Micro and Small Enterprise Development                        Office of Management and Budget (OMB). Subsidy
   Program (MSED)                                                relating to existing loans and guarantees is generally
•	 Israel Loan Guarantee Program                                 required to be reestimated on an annual basis to
   (Israel Loan)                                                 adjust for changes in risk and interest rate assump-
                                                                 tions. Direct loans are reported net of an allowance
•	 Development Credit Authority Program (DCA)                    for this subsidy cost (allowance for subsidy). The
•	 Egypt Loan Guarantee Program                                  subsidy costs associated with loan guarantees are
                                                                 reported as loan guarantee liability.
•	 Tunisia Loan Guarantee Program
                                                                 An analysis of loans receivable, loan guarantees,
Direct loans resulting from obligations made prior               liability for loan guarantees, and the nature and
to 1992 are reported net of allowance for estimated              amounts of the subsidy costs associated with the
uncollectible loans. Estimated losses from defaults on           loans and loan guarantees are provided in the
loan guarantees resulting from obligations made prior            following sections.
to 1992 are reported as a liability.
                                                                 The following net loan receivable amounts are not
The Credit Reform Act of 1990 prescribes an alterna-             the same as the proceeds that USAID would expect
tive method of accounting for direct loans and guar-             to receive from selling its loans. Actual proceeds may
antees resulting from obligations made after 1991.               be higher or lower depending on the borrower and
Subsidy cost, which is the net present value of the              the status of the loan.
cash flows (i.e. interest rates, interest supplements,


 SUMMARY OF LOANS RECEIVABLES, NET
 (In Thousands)

                                                                                        2013                2012
 Net Direct Loans Obligated Prior to 1992 (Allowance for Loss Method)                $	2,218,674         $	2,414,336
 Net Direct Loans Obligated After 1991 (Present Value Method)                            221,342             237,142
 Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method)         134,330             122,098
 Total Loans Receivable, Net as reported on the Balance Sheet                        $	2,574,346         $	2,773,576




                                                                                                                                    42


                                                                        USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION    95
DIRECT LOANS

DIRECT LOANS
(In Thousands)

                                                     Loans                                               Value of Assets
                                                   Receivable         Interest       Allowance for      Related to Direct
Loan Programs                                        Gross           Receivable       Loan Losses          Loans, Net

Direct Loans Obligated Prior to 1992 (Allowance for Loss Method) as of September 30, 2013:
	    Direct Loans                                   $	2,413,663          $	287,076     $	(482,065)        $	2,218,674
	MSED                                                       29                  32             (61)       	–
	Total                                              $	2,413,692          $	287,108     $	(482,126)        $	2,218,674


Direct Loans Obligated Prior to 1992 (Allowance for Loss Method) as of September 30, 2012:
	    Direct Loans                                   $	2,667,424          $	347,807     $	(600,894)        $	2,414,337
	MSED                                                       29                  26     	(55)              	–
	Total                                              $	2,667,453          $	347,833     $	(600,949)        $	2,414,337

                                                     Loans                            Allowance for      Value of Assets
                                                   Receivable         Interest        Subsidy Cost      Related to Direct
Loan Programs                                        Gross           Receivable      (Present Value)       Loans, Net

Direct Loans Obligated After 1991 as of September 30, 2013:
	    Direct Loans                                   $	777,100            $	6,961       $	(641,807)        $	142,254
	    UE - Subrogated Claims                             52,356              22,083           4,832            79,271
	MSED                                                      150                  24           (357)              (183)
	Total                                              $	829,606            $	29,068      $	(637,332)        $	221,342


Direct Loans Obligated After 1991 as of September 30, 2012:
	    Direct Loans                                   $	771,129            $	14,802      $	(622,091)        $	163,840
	    UE - Subrogated Claims                             49,208              16,249           8,029            73,486
	MSED                                                      150                  24           (357)              (183)
	Total                                              $	820,487            $	31,075      $	(614,419)        $	237,143



TOTAL AMOUNT OF DIRECT LOANS DISBURSED
(In Thousands)

Direct Loan Programs                                                                         2013               2012
	    Direct Loans                                                                         $	3,190,763        $	3,438,553
	    UE - Subrogated Claims                                                                    52,356             49,208
	MSED                                                                                             179               179
	Total                                                                                    $	3,243,298        $	3,487,940




                                                                                                                        43


96           USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
SCHEDULE FOR RECONCILING SUBSIDY COST ALLOWANCE BALANCES
(POST-1991 DIRECT LOANS)
(In Thousands)

                                                                          2013                                                2012
                                                       Direct      UE - Sub.                              Direct      UE - Sub.
                                                       Loan         Claims      MSED        Total         Loan         Claims      MSED         Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Subsidy Cost Allowance       $	622,091    $	(8,029)    $	357     $	614,419      $	567,953    $	(18,950)   $	183       $	549,186
Add: Subsidy Expense for Direct Loans Disbursed
During the Reporting Years by Component:
	    (A) Interest Rate Differential Costs             	–           	–           	–        	–             	–           	–           	–          	–
	    (B) Default Costs (Net of Recoveries)            	–           	–           	–        	–             	–           	–           	–          	–
	    (C) Fees and Other Collections                   	–           	–           	–        	–             	–           	–           	–          	–
	    (D) Other Subsidy Costs                          	–           	–           	–        	–             	–           	–           	–          	–
Total of the Above Subsidy Expense Components         	–           	–           	–        	–             	–           	–           	–          	–
Adjustments:
	    (A) Loan Modifications                           	–           	–           	–        	–             	–           	–           	–          	–
	    (B) Fees Received                                	–           	–           	–        	–             	–           	–           	–          	–
	    (C) Foreclosed Property Acquired                 	–           	–           	–        	–             	–           	–           	–          	–
	    (D) Loans Written Off                            	–           	–           	–        	–             	–           	–           	–          	–
	    (E) Subsidy Allowance Amortization                  (3,790)   	–           	–           (3,790)        (3,790)   	–           	–             (3,790)
	    (F) Other                                           23,506       3,197     	–          26,703          57,928      10,921        174        69,023
Ending Balance of the Subsidy Cost Allowance Before   $	641,807    $	(4,832)    $	357     $	637,332      $	622,091    $	(8,029)    $	357       $	614,419
Reestimates
Add or Subtract Subsidy Reestimates by Component:
	    (A) Interest Rate Reestimate                     	–           	–           	–        	–             	–           	–           	–          	–
	    (B) Technical/Default Reestimate                 	–           	–           	–        	–             	–           	–           	–          	–
Total of the Above Reestimate Components              	–           	–           	–        	–             	–           	–           	–          	–
Ending Balance of the Subsidy Cost Allowance          $	641,807    $	(4,832)    $	357     $	637,332      $	622,091    $	(8,029)    $	357       $	614,419



DEFAULTED GUARANTEED LOANS
(In Thousands)

                                                    Defaulted                                                                  Value of Assets
                                                   Guaranteed                                          Allowance             Related to Defaulted
                                                 Loans Receivable,              Interest               For Loan               Guaranteed Loans
Loan Guarantee Programs                               Gross                    Receivable               Losses                 Receivable, Net

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): 2013
UE                                                 $	138,801                   $	23,433                $	(27,904)                  $	134,330
Total                                              $	138,801                   $	23,433                $	(27,904)                  $	134,330


Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): 2012
UE                                                 $	132,314                   $	93,523                $	(103,738)                 $	122,099
Total                                              $	132,314                   $	93,523                $	(103,738)                 $	122,099


                                                                                                                                                   44

                                                                     USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                          97
DEFAULTED GUARANTEED LOANS FROM POST-1991 GUARANTEES
In 2013, the UE Program experienced $3.8 million in defaults on payments.

In 2012, the UE Program experienced $3.8 million in defaults on payments.



GUARANTEED LOANS OUTSTANDING

GUARANTEED LOANS OUTSTANDING
(In Thousands)

                                                                              Outstanding       Amount of
                                                                                Principal,      Outstanding
                                                                            Guaranteed Loans,    Principal
Loan Guarantee Programs                                                        Face Value       Guaranteed

Guaranteed Loans Outstanding (2013):
UE                                                                             $	656,726        $	656,726
MSED                                                                                 14,760            7,380
Israel                                                                           10,921,749       10,921,749
DCA                                                                                276,315          138,157
Egypt                                                                             1,250,000        1,250,000
Tunisia                                                                            485,000          485,000
Total                                                                          $	13,604,550     $	13,459,012


Guaranteed Loans Outstanding (2012):
UE                                                                             $	734,890        $	734,890
MSED                                                                                 14,760            7,380
Israel                                                                           11,280,648       11,280,648
DCA                                                                                266,156          133,078
Egypt                                                                             1,250,000        1,250,000
Tunisia                                                                            485,000          485,000
Total                                                                          $	14,031,454     $	13,890,996


New Guaranteed Loans Disbursed (2013):
DCA                                                                            $	95,546         $	47,773
Tunisia                                                                        	–               	–
Total                                                                          $	95,546         $	47,773


New Guaranteed Loans Disbursed (2012):
DCA                                                                            $	76             $	38
Tunisia                                                                            485,000          485,000
Total                                                                          $	485,076        $	485,038




                                                                                                               45

98         USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
LIABILITY FOR LOAN GUARANTEES
(In Thousands)

                                                     Liabilities for Losses      Liabilities for
                                                         on Pre-1992           Loan Guarantees                Total
                                                         Guarantees,             for Post-1991              Liabilities
                                                      Estimated Future            Guarantees,               for Loan
             Loan Guarantee Programs                    Default Claims          Present Value              Guarantees

Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2013:
UE                                                       $	–                     $	147,863                $	147,863
MSED                                                     	–                             (661)                       (661)
Israel                                                   	–                         1,153,581               1,153,581
DCA                                                      	–                            72,432                  72,432
Egypt                                                    	–                          460,855                  460,855
Tunisia                                                  	–                            12,783                  12,783
Total                                                    $	–                     $	1,846,853              $	1,846,853



Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2012:
UE                                                       $	28,528                $	155,921                $	184,449
MSED                                                     	–                             (661)                       (661)
Israel                                                   	–                         1,297,606               1,297,606
DCA                                                      	–                            62,233                  62,233
Egypt                                                    	–                          438,855                  438,855
Tunisia                                                  	–                            29,876                  29,876
Total                                                    $	28,528                $	1,983,830              $	2,012,358




SUBSIDY EXPENSE FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT

SUBSIDY EXPENSE FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT
(In Thousands)

                                   Interest                           Fees and Other
 Loan Guarantee Programs         Supplements          Defaults          Collections             Other               Total

Subsidy Expense for New Loan Guarantees (2013):
DCA                               $	–                $	–                 $	–                $	6,655           $	6,655
Tunisia                           	–                 	–                  	–                 	–                	–
Total                             $	–                $	–                 $	–                $	6,655           $	6,655



Subsidy Expense for New Loan Guarantees (2012):
DCA                               $	–                $	6,396             $	–-               $	–               $	6,396
Tunisia                           	–                    29,876           	–                 	–                        29,876
Total                             $	–                $	36,272            $	–                $	–               $	36,272

                                                                                                             (continued on next page)

                                                                                                                               46
                                                      USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                  99
SUBSIDY EXPENSE FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT (continued)
(In Thousands)

                                                         Total           Interest Rate        Technical          Total
Loan Guarantee Programs                               Modifications       Reestimates        Reestimates      Reestimates
Modifications and Reestimates (2013):
	UE                                                    $	–                $	–                $	(2,023)         $	(2,023)
	Israel                                                	–                 	–                    (224,970)        (224,970)
	DCA                                                   	–                 	–                       7,496               7,496
	Egypt                                                 	–                 	–                       3,174               3,174
	Tunisia                                               	–                 	–                         772                 772
	Total                                                 $	–                $	–                $	(215,551)       $	(215,551)

Modifications and Reestimates (2012):
	UE                                                    $	–                $	–                $	(4,907)         $	(4,907)
	Israel                                                	–                 	–                     (99,363)             (99,363)
	DCA                                                   	–                 	–                        (380)               (380)
	Egypt                                                 	–                 	–                     301,455          301,455
	Tunisia                                               	–                 	–                 	–                	–
	Total                                                 $	–                $	–                $	196,805         $	196,805



TOTAL LOAN GUARANTEE SUBSIDY EXPENSE
(In Thousands)

Loan Guarantee Programs                                                                          2013             2012
	UE                                                                                          $	(2,023)        $	(4,907)
	MSED                                                                                        	–               	–
	Israel                                                                                       (224,970)          (99,363)
	DCA                                                                                            14,150                6,016
	Egypt                                                                                            3,174          301,455
	Tunisia                                                                                           772            29,876
	Total                                                                                       $	(208,897)      $	233,077



SUBSIDY RATES FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT:

BUDGET SUBSIDY RATES FOR LOAN GUARANTEES FOR THE CURRENT YEAR’S COHORTS
(Percent)

                                                                       Fees and
                                    Interest                            Other
                                  Supplements                         Collections
Loan Guarantee Programs               (%)          Defaults (%)           (%)        Other (%)              Total (%)

 	DCA                                    –             4.77%               (0.70)%       –                    4.07%
 	Tunisia                                –             0.00%                –            –                    0.00%



                                                                                                                              47


100         USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
SCHEDULE FOR RECONCILING LOAN GUARANTEE LIABILITY BALANCES
(In Thousands)


                                                                             2013
            (Post-1991 Loan Guarantees)                           DCA         MSED          UE         Israel        Egypt     Tunisia      Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Loan Guarantee Liability                $	62,233     $	(661)    $	155,921    $	1,297,606 $	438,855    $	29,876   $	1,983,830
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
	 Reporting Years by Component:
	 (A) Interest Supplement Costs                                  	–           	–         	–           	–            	–         	–         	–
	 (B) Default Costs (Net of Recoveries)                           6,655       	–         	–           	–            	–         	–          6,655
	 (C) Fees and Other Collections                                 	–           	–         	–           	–            	–         	–         	–
	 (D) Other Subsidy Costs                                        	–           	–         	–           	–            	–         	–         	–
Total of the Above Subsidy Expense Components                    $	6,655      $	–        $	–          $	– $	–                  $	–        $	6,655
Adjustments:                                                                                                                              	
	 (A) Loan Guarantee Modifications                               	–           	–         	–           	–            	–         	–         	–
	 (B) Fees Received                                              	–           	–         	–           	–            	–         	–         	–
	 (C) Interest Supplements Paid                                  	–           	–         	–           	–            	–         	–         	–
	 (D) Foreclosed Property and Loans Acquired                     	–           	–         	–           	–            	–         	–         	–
	 (E) Claim Payments to Lenders                                  	–           	–         	–           	–            	–         	–         	–
	 (F) Interest Accumulation on the Liability Balance              2,601       	–          3,434       80,945        18,826     	–           105,806
	 (G) Other                                                      (6,552)      	–         (9,469)      	–            	–         (17,865)     (33,886)
Ending Balance of the Loan Guarantee Liability Before Reestimates $	64,936    $	(661)    $	149,886    $	1,378,551 $	457,681    $	12,011   $	2,062,404
Add or Subtract Subsidy Reestimates by Component:
	 (A) Interest Rate Reestimate                                    	–          	–         	–           	– 	–                    	–         	–
	 (B) Technical/Default Reestimate                                   7,496    	–         (2,023)      (224,970) 3,174           772       (215,551)
Total of the Above Reestimate Components                            7,496     	–            (2,023)     (224,970)      3,174        772     (215,551)
Ending Balance of the Loan Guarantee Liability                   $	72,432     $	(661)    $	147,863    $	1,153,581 $	460,855    $	12,783   $	1,846,853



                                                                             2012
            (Post-1991 Loan Guarantees)                           DCA         MSED          UE         Israel        Egypt     Tunisia      Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Loan Guarantee Liability                $	30,206     $	(661)    $	162,947    $	1,314,845 $	131,881    $	–        $	1,639,218
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
	 Reporting Years by Component:
	 (A) Interest Supplement Costs                                  	–           	–         	–           	–            	–         	–         	–
	 (B) Default Costs (Net of Recoveries)                           6,396       	–         	–           	–            	–         29,876     36,272
	 (C) Fees and Other Collections                                 	–           	–         	–           	–            	–         	–         	–
	 (D) Other Subsidy Costs                                        	–           	–         	–           	–            	–         	–         	–
Total of the Above Subsidy Expense Components                    $	6,396      $	–        $	–          $	– $	–                  $	29,876   $	36,272
Adjustments:                                                                                                                              	
	 (A) Loan Guarantee Modifications                               	–           	–         	–           	–            	–         	–         	–
	 (B) Fees Received                                               1,306       	–           1,045      	–            	–         	–              2,351
	 (C) Interest Supplements Paid                                  	–           	–         	–           	–            	–         	–         	–
	 (D) Foreclosed Property and Loans Acquired                     	–           	–         	–           	–            	–         	–         	–
	 (E) Claim Payments to Lenders                                  (6,575)       (11)      (13,467)     (662,889)     (69,448)   	–           (752,390)
	 (F) Interest Accumulation on the Liability Balance              1,998       	–           3,307        82,124        5,519    	–             92,948
	 (G) Other                                                      29,282         11         6,996       662,889       69,448    	–            768,626
Ending Balance of the Loan Guarantee Liability Before Reestimates 62,613         (661)    160,828      1,396,969     137,400     29,876    1,787,025
Add or Subtract Subsidy Reestimates by Component:
	 (A) Interest Rate Reestimate                                    	–          	–         	–           	– 	–                    	–         	–
	 (B) Technical/Default Reestimate                                  (380)     	–         (4,907)      (99,363) 301,455         	–         196,805
Total of the Above Reestimate Components                             (380)    	–            (4,907)      (99,363)    301,455   	–            196,805
Ending Balance of the Loan Guarantee Liability                   $	62,233     $	(661)    $	155,921    $	1,297,606 $	438,855    $	29,876   $	1,983,830


                                                                                                                                               49
                                                                     USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                   101
                     ADMINISTRATIVE EXPENSE
                     (In Thousands)

                     Loan Programs                                                  2013                        2012
                     	DCA                                                        $	16,988                    $	13,890
                     	Total                                                      $	16,988                    $	13,890



                    OTHER INFORMATION
                    1.	Allowance for Loss for Liquidating account         2.	The MSED Liquidating Account general ledger
                       (pre-Credit Reform Act) receivables have been         has a loan receivable balance of $29 thousand.
                       calculated in accordance with OMB guidance            This includes a loan pending closure. This loan
                       using a present value method which assigns risk       is being carried at 100% bad debt allowance.
                       ratings to receivables based upon the country
                       of debtor. Five countries are in violation of      3.	Reestimate amounts are subject to approval by
                       Section 620q of the Foreign Assistance Act            the Office of Management and Budget (OMB),
                       (FAA), owing $11.3 million that is more than          and any adjustments, if necessary, will be made
                       six months delinquent. Seven countries are in         in FY 2014.
                       violation of the Brooke-Alexander Amendment
                       to the Foreign Operations Export Financing
                       and Related Programs Appropriations Act,
                       owing $423.3 million that is more than one
                       year delinquent.


                    NOTE 7. INVENTORY AND RELATED PROPERTY, NET
                    USAID’s Inventory and Related Property, Net is comprised of Operating Materials and Supplies.
                    Operating Materials and Supplies as of September 30, 2013 and 2012 are as follows:

                     INVENTORY AND RELATED PROPERTY
                     (In Thousands)

                                                                                    2013                        2012
                     Items Held for Use
                     	   Office Supplies                                         $	3,854                     $	5,260
                     Items Held in Reserve for Future Use
                     	   Disaster Assistance Materials and Supplies                  13,136                     11,139
                     	   Birth Control Supplies                                      19,006                     13,208
                     Total Inventory and Related Property                        $	35,996                    $	29,607


                    Operating Materials and Supplies are considered       There are no obsolete or unserviceable items, and
                    tangible properties that are consumed in the normal   no restrictions on their use. Items costing less than
                    course of business and not held for sale. The         $25,000 are expensed as incurred.
                    valuation is based on historical acquisition costs.




                                                                                                                          50

102   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET
The components of Property, Plant and Equipment (PP&E) as of September 30, 2013 and 2012 are
as follows:

 GENERAL PROPERTY, PLANT AND EQUIPMENT, NET
 (In Thousands)

                                                                                           Net Book Net Book
                                                 Useful                    Accumulated      Value    Value
                                                  Life           Cost      Depreciation      2013     2012
 Classes of Fixed Assets:
 	Equipment                                     3 to 5 years   $	82,172    $	(62,451)       $	19,721    $	19,468
 	   Buildings, Improvements, and Renovations    20 years         68,852   	(45,781)          23,071       25,614
 	   Land and Land Rights                          N/A             7,203   	N/A                7,203        7,203
 	   Assets Under Capital Lease (Note 9)                       	–          	–               	–          	–
 	   Construction in Progress                      N/A         	–          	–               	–          	–
 	   Internal Use Software                      3 to 5 years     112,715   	(97,925)          14,790       24,075
 Total PP&E                                                    $	270,942   $	(206,157)      $	64,785    $	76,360


The threshold for capitalizing assets is $25,000                 Buildings, Improvements, and Renovations, in
except for Internal Use Software which is                        addition to Land and Land Rights include USAID
capitalized and amortized at $300,000. Assets are                owned office buildings and residences at foreign
depreciated using the straight line depreciation                 missions, including the land on which these struc-
method. USAID uses the mid-year convention                       tures reside. These structures are used and main-
for assets purchased prior to FY 2003 and the                    tained by the field missions. USAID generally does
mid-quarter convention for assets purchased                      not separately report the cost of the building and
during FY 2003 and beyond. Depreciable assets                    the land on which the building resides.
are assumed to have no remaining salvage value.
There are currently no restrictions on PP&E assets.              Land consists of property owned by USAID in
                                                                 foreign countries. Land is generally procured
USAID PP&E includes assets located in Wash-                      with the intent of constructing buildings.
ington, D.C. offices and overseas field missions.

Equipment consists primarily of electric genera-
tors, Automatic Data Processing (ADP) hardware,
vehicles and copiers located at the overseas field
missions. Note 9 discusses USAID leases.




                                                                                                                                 51
                                                                     USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION   103
                    NOTE 9. LEASES
                    As of September 30, 2013 and 2012 Leases consisted of the following:

                     LEASES
                     (In Thousands)

                     Entity as Lessee
                     	 Capital Leases:                                               2013                      2012
                     	 Summary of Assets Under Capital Lease:
                     		Buildings                                                  $	–                       $	–
                     		Accumulated Depreciation                                   	–                        	–
                     	 Net Assets under Capital Leases                            $	–                       $	–

                     Description of Lease(s) Arrangements. Capital leases consist of rental agreements entered into
                     by missions for warehouses, parking lots, residential space, and office buildings. These leases are one
                     year or more in duration.
                     	   Operating Leases:
                     	   Future Payments Due:                                        2013
                     	   Fiscal Year                                             Future Costs
                            2014                                                  $	100,674
                            2015                                                      90,298
                            2016                                                      39,056
                            2017                                                      31,152
                            2018                                                      19,515
                            After 5 Years                                             29,892
                     	   Total Future Lease Payments                              $	310,588


                    Operating lease payments total $311 million            expiration dates of FY 2013, FY 2015, FY 2016,
                    in future lease payments of which $158 million         FY 2017 and FY 2020. The lessor, General Services
                    is for the USAID headquarters in Washington,           Administration (GSA), charges commercial rates
                    D.C. The current lease agreements are for              for USAID’s occupancy.
                    approximately 802,417 sq. feet and with




                                                                                                                         52
104   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 10. LIABILITIES COVERED AND NOT
COVERED BY BUDGETARY RESOURCES
USAID records liabilities for amounts that are likely to                  Congressional action is needed before budgetary
be paid as the direct result of events that have already                  resources can be provided. Accrued unfunded
occurred. USAID considers the Intragovernmental                           annual leave, workers’ compensation benefits,
accounts payable as liabilities covered under                             and separation pay represent future liabilities not
budgetary resources. These accounts payable are                           currently funded by budgetary resources, but will
those payable to other federal agencies and consist                       be funded as it becomes due with future resources.
mainly of unliquidated obligation balances related to                     The Contingent Liabilities for Loan Guarantees is
interagency agreements between USAID and other                            in the pre-Credit Reform Urban and Environmental
federal agencies. The accounts payable with the public                    (UE) Housing Loan Guarantee liquidating fund.
represent liabilities to non-federal entities.                            As such, it represents the estimated liability to lenders
                                                                          for future loan guarantee defaults in that program.
Liabilities not covered by budgetary resources
include accrued unfunded annual leave and                                 As of September 30, 2013 and 2012 liabilities
separation pay. Although future appropriations to                         covered and not covered by budgetary resources
fund these liabilities are probable and anticipated,                      were as follows:

 LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES
 (In Thousands)

                                                                                            2013                   2012
 Liabilities Covered by Budgetary Resources:
 Intragovernmental:
 	   Accounts Payable                                                                   $	42,534               $	121,730
 	   Debt (Note 11)                                                                        481,000                 478,304
 	   Liability for Capital Transfers to the General Fund of the Treasury (Note 11)       2,391,590               2,613,998
 	   Other Liabilities (Note 12)                                                           538,086                 660,533
 Total Intragovernmental                                                                    3,453,210              3,874,565

 Accounts Payable                                                                           1,564,774              1,856,966
 Disbursements in Transit                                                                       5,568                 10,178
 Total Accounts Payable with Public                                                         1,570,342              1,867,144
 Loan Guarantee Liability (Note 6)                                                          1,846,853              1,983,830
 Other Liabilities with Public                                                                492,341                501,747
 Total Liabilities Covered by Budgetary Resources                                       $	7,362,746            $	8,227,286

 Liabilities Not Covered by Budgetary Resources:
 Intragovernmental:
     IPAC Suspense                                                                      $	(29,203)             $	(7,108)
     Unfunded FECA Liability (Note 13)                                                      8,229                 8,228
     Other Unfunded Employment Related Liability                                              197                   120
     Other Liabilities (Note 12)                                                          206,744                95,088
 Total Intragovernmental (Note 12)                                                      $	185,967              $	96,328
 Accrued Annual Leave                                                                      49,514                43,829
 FSN Separation Pay Liability                                                           	–                     	–
 Total Accrued Unfunded Annual Leave and Separation Pay                                  49,514                      43,829
 Future Workers’ Compensation Benefits (Note 13)                                         26,047                      23,582
 Debt - Contingent Liabilities for Loan Guarantees (Note 6)                             	–                           28,528
 Total Liabilities Not Covered by Budgetary Resources                                         261,528               192,267
 Total Liabilities                                                                      $	7,624,274            $	8,419,553

                                                                                                                                        53
                                                                            USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION   105
                    NOTE 11. DEBT
                    USAID Intragovernmental Debt as of September 30, 2013 and 2012 consisted of the following borrow-
                    ings from Treasury for post-1991 loan programs, which is classified as other debt:

                     INTRAGOVERNMENTAL DEBT
                     (In Thousands)

                                               2012                             2012                              2013
                     Debt Due to             Beginning          Net            Ending             Net            Ending
                     Treasury                 Balance        Borrowing         Balance         Borrowing         Balance
                     Direct Loans            $	478,195        $	–              $	478,195       $	96              $	478,291
                     DCA                           185        	(76)                  109            2,600            2,709
                     Total Treasury Debt     $	478,380        $	(76)           $	478,304       $	2,696           $	481,000


                    Pursuant to the Federal Credit Reform Act of 1990,     The above disclosed debt is principal payable to
                    agencies with credit programs have permanent indefi-   Treasury, which represents financing account
                    nite authority to borrow funds from the Treasury.      borrowings from Treasury under the Federal Credit
                    These funds are used to disburse new direct loans      Reform Act and net liquidating account equity in
                    to the public and, in certain situations, to cover     the amount of $2.4 billion, which under the Act
                    credit reform program costs. Liquidating (pre-1992)    is required to be recorded as Liability for Capital
                    accounts have permanent indefinite borrowing           Transfers to the General Fund of the Treasury.
                    authority to be used to cover program costs when       All debt shown is intragovernmental debt.
                    they exceed account resources.

                    In FY 2013, no interest was accrued for Develop-
                    ment Credit Authority (DCA) and Direct Loans.




                                                                                                                         54

106   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 12. OTHER LIABILITIES
As of September 30, 2013 and 2012 Other Liabilities consisted of the following:

 OTHER LIABILITIES
 (In Thousands)

                                                                              2013              2012
 Intragovernmental
 	   IPAC Suspense                                                         $	(29,203)       $	(7,108)
 	   Unfunded FECA Liability (Note 13)                                           8,229             8,228
 	   Custodial Liability                                                         6,034             8,090
 	   Employer Contributions & Payroll Taxes Payable                              2,975             4,765
 	   Other Unfunded Employment Related Liability                                  197                120
 	   Liability for Advances and Prepayments                                    529,077           647,678
 	   Other Liabilities                                                         206,744            95,088
 Total Intragovernmental                                                   $	724,053        $	756,861

 Accrued Funded Payroll and Leave                                               21,905            31,325
 Accrued Unfunded Annual Leave and Separation Pay (Note 10)                     49,514            43,829
 Advances From Others                                                            2,725             2,697
 Deferred Credits                                                                 360              1,330
 Foreign Currency Trust Fund                                                   344,404           350,210
 Capital Lease Liability (Note 9)                                          	–               	–
 Other Liabilities                                                             122,947           116,185
 Total Liabilities With the Public                                         $	541,855        $	545,576
 Total Other Liabilities                                                   $	1,265,908      $	1,302,437


Intragovernmental Liabilities represent amounts due to other federal agencies. All remaining Other Liabili-
ties are liabilities to non-federal entities.




                                                                                                                          55

                                                              USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION   107
                    NOTE 13. FEDERAL EMPLOYEES AND VETERAN’S BENEFITS
                    The provision for workers’ compensation benefits payable, as of September 30, 2013 and 2012 are
                    indicated in the table below.

                     ACCRUED UNFUNDED WORKERS’ COMPENSATION BENEFITS
                     (In Thousands)

                                                                                           2013                     2012
                     Liabilities Not Covered by Budgetary Resources
                     	   Future Workers’ Compensation Benefits                          $	26,047                  $	23,582
                         Unfunded FECA Liability                                               8,229                    8,228
                     	   Total Accrued Unfunded Workers’ Compensation Benefits          $	34,276                  $	31,810


                    The Federal Employees’ Compensation Act (FECA)               The actuarial estimate for the FECA unfunded
                    provides income and medical cost protection to               liability is determined by the DOL using a
                    covered federal civilian employees injured on the            method that utilizes historical benefit payment
                    job and to beneficiaries of employees whose deaths           patterns. The projected annual benefit payments
                    are attributable to job-related injury or disease.           are discounted to present value using economic
                    The FECA program is administered by the Depart-              assumption for 10-year Treasury notes and bonds
                    ment of Labor (DOL). DOL initially pays valid                and the amount is further adjusted for inflation.
                    FECA claims for all Federal government agencies
                    and seeks reimbursement two fiscal years later from
                    the Federal agencies employing the claimants.

                    For FY 2013, USAID’s total FECA liability was
                    $34.3 million, comprised of unpaid FECA billings
                    for $8.2 million and estimated future FECA costs
                    of $26.1 million.




                                                                                                                                56
108   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 14. COMMITMENTS AND CONTINGENCIES
USAID is involved in certain claims, suits, and       •	 The third case is a companion to the prior case,
complaints that have been filed or are pending.          in which a contractor seeks compensation for
These matters are in the ordinary course of the          efforts and expenses it claims to have incurred
Agency’s operations and are not expected to have         under a terminated host country contract. An
a material adverse effect on the Agency’s financial      estimate of the amount or range of potential
operations.                                              loss is $1.8 million.

As of September 30, 2013 a total of four cases were   •	 The fourth case is filed under the Federal Tort
pending.                                                 Claims Act, and alleges negligence on the part
                                                         of USAID that resulted in arrest and incarcera-
•	 The first case arises from a fatal automobile         tion of the claimants. Following the briefing,
   collision. The consolidated action asserts            the court dismissed the complaint; thereafter
   negligence against the United States (USAID           the claimants appealed the dismissal. The case
   and the Department of State). The court has           is currently pending before the appellate court.
   dismissed the tort claims. The Agency denied          An estimate of the amount or range of potential
   reconsideration. An estimate of the amount            loss is $60 million.
   or range of potential loss is $48 million.
   However, the possibility of an unfavorable         USAID’s normal course of business involves the
   outcome is remote.                                 execution of project agreements with foreign
                                                      governments that are a type of treaty. All of these
•	 The second case is a contract claim that USAID     agreements give rise to obligations that are fully
   wrongfully withheld payment for invoices           reported on USAID’s financial statements, and
   submitted under the terms of a “Hurricane          none of which are contingent. It is not USAID’s
   Mitch” host country contract. An estimate          normal business practice to enter into other types
   of the amount or range of potential loss is        of agreements or treaties with foreign governments
   $2.2 million.                                      that create contingent liabilities.




                                                                                                                      57
                                                          USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION   109
                    NOTE 15. RECOVERY ACT FUNDS

                     RECOVERY ACT ASSETS, LIABILITIES AND NET POSITION
                     (In Thousands)

                                                                                       Recovery Act Assets, Liabilities
                                                                                             and Net Position
                                                                                       2013                      2012
                     Fund Balance With Treasury                                   $	                         $	8
                     Total Assets                                                                                         8

                     Accounts Payable                                                                        	–
                     Total Liabilities                                                                       	–

                     Unexpended Appropriations                                                                8
                     Cumulative Results of Operations                                                        	–
                     Total Net Position                                                                                   8
                     Total Liabilities and Net Position                           $	                         $	8


                                                                                       Status of Recovery Act Funds
                     Total Budgetary Resources                                    $	                         $	8

                     Obligations Incurred                                                                    	–
                     Unobligated Balance                                                                      8
                     Total Status of Budgetary Resources                          $	                         $	8

                     Total, Unpaid Obligated Balance, Net, End of Period          	                          	–
                     Net Outlays                                                  $	                         $	968


                    In February 2009, Congress passed the American         USAID received $38 million for information
                    Recovery and Reinvestment Act of 2009 with             technology security and upgrades to support
                    the goal to create jobs, spur economic activity        mission-critical operations. Due to Agency IT
                    and invest in long term economic growth. This          priorities and toward maximizing job creation
                    $787 billion Recovery plan includes federal tax cuts   with the Recovery Act funds, USAID deter-
                    and incentives, an expansion of unemployment           mined that the funding should be dedicated to
                    benefits, and other spending on social entitlement     the Global Acquisition and Assistance System
                    programs. In addition, federal agencies are using      (GLAAS) project. There is one fund in asso-
                    Recovery funds to award contracts, grants, and         ciation with the Recovery Act Funds.
                    loans around the country.
                                                                           The Recovery Act Funds were fully expended in
                                                                           FY 2012 and there is no further reportable activity.




                                                                                                                              58


110   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
     NOTE 16. INTRAGOVERNMENTAL COSTS
     AND EARNED REVENUE

     The Consolidated Statement of Net Cost reports the              Note 16 shows the value of transactions between
     Agency’s gross costs less earned revenues to arrive             USAID and other federal entities as well as non-
     at net cost of operations by Objective and Program              federal entities. These are also categorized by Objec-
     Area, as of September 30, 2013. These objectives                tives, Program Areas and Responsibility Segments.
     are consistent with the State/USAID’s Strategic                 Responsibility Segments are defined in Note 17.
     Planning Framework.
                                                                     Intragovernmental costs and earned revenue sources
     The format of the Consolidated Statement of Net                 relate to transactions between USAID and other
     Cost is consistent with OMB Circular A-136                      federal entities. Public costs and exchange revenues
     guidance.                                                       relate to transactions between USAID and non-
                                                                     federal entities.

INTRAGOVERNMENTAL COSTS AND EARNED REVENUE BY RESPONSIBILITY SEGMENT
For the Years Ended September 30, 2013 and 2012
(In Thousands)

                                                                                                               Latin
                                                                          Europe                              America                                           2012
                                                                            &         Global                     &        Middle                  2013        Restated
Objective                   Africa       Asia       DCHA       E3         Eurasia     Health      IDEA       Caribbean     East       OAPA        Total        Total

Peace and Security
  Intragovernmental Costs $	2,161 $	1,407 $	7,200 $	1,948 $	2,834 $	– $	–                                    $	4,292 $	5,532 $	8,731 $	34,105 $	36,571
  Public Costs               91,989   25,455   172,892  5,622   64,221 	– 	–                                  151,178   1,781  153,549  666,687   652,013
     Total Program Costs     94,150   26,862   180,092  7,570   67,055 	– 	–                                  155,470   7,313  162,280  700,792   688,584
  Intragovernmental            (273)    (164)     (953)  (122)    (523) 	– 	–                                    (791) 	–         (444)  (3,270) 	(3,020)
     Earned Revenue
  Public Earned Revenue 	–                (1)       (8)    (1)      (4) 	– 	–                                      (12) 	– 	–                           (26) 	(105)
     Total Earned Revenue      (273)    (165)     (961)  (123)    (527) 	– 	–                                     (803) 	–        (444)              (3,296) 	(3,125)
Net Program Costs           93,877   26,697   179,131   7,447  66,528 	– 	–                                   154,667    7,313 161,836             697,496    685,459

Governing Justly and Democratically
  Intragovernmental Costs    6,564        6,550       4,692       651        7,734 	–                 316        7,223       7,919   8,363           50,012      96,976
  Public Costs             203,499      144,132      56,063     6,181      195,007 	–               2,933      154,846     122,997 	–               885,658   2,693,537
     Total Program Costs   210,063      150,682      60,755     6,832      202,741 	–               3,249      162,069     130,916   8,363          935,670   2,790,514
  Intragovernmental           (719)        (925)       (686)      (97)         (80)                   (58)        (229)       (216) 	–               (3,010) 	(8,744)
     Earned Revenue
  Public Earned Revenue         (3)           (8)        (6)        (1)        (9) 	– 	– 	– 	– 	–                                                       (27) 	(348)
     Total Earned Revenue     (722)         (933)      (692)       (98)       (89) 	–    (58)    (229)    (216) 	–                                   (3,037) 	(9,092)
Net Program Costs         209,341       149,749      60,063     6,734     202,652 	–  3,191   161,840  130,700   8,363                             932,633 2,781,422

Investing in People
  Intragovernmental Costs     79,201     15,351       3,591     9,954        1,296     12,529      1,003         9,455      17,946     14,584       164,910     210,230
  Public Costs               670,593    177,615      86,005    85,436       43,030    521,770      9,376       155,641     713,558    281,809     2,744,833   2,841,154
     Total Program Costs     749,794    192,966      89,596    95,390       44,326    534,299     10,379       165,096     731,504    296,393     2,909,743   3,051,384
  Intragovernmental          (11,130)    (2,705)      (651)    (5,182)        (337)    (3,661)      (185)       (1,534)     (2,168)    (2,192)      (29,745) 	(611,201)
     Earned Revenue
  Public Earned Revenue          (79)        (22)        (5)    (2,897)        (3)         (28)        (2)         (13)        (18)    (10,627)      (13,694) 	(7,952)
     Total Earned Revenue    (11,209)     (2,727)      (656)    (8,079)      (340)      (3,689)     (187)       (1,547)     (2,186)    (12,819)      (43,439) 	(619,153)
Net Program Costs           738,585     190,239      88,940    87,311      43,986     530,610     10,192      163,549     729,318     283,574     2,866,304 2,432,231
                                                                                                                                                   (continued on next page)



                                                                                                                                                            59
                                                                           USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                          111
INTRAGOVERNMENTAL COSTS AND EARNED REVENUE BY RESPONSIBILITY SEGMENT
For the Years Ended September 30, 2013 and 2012
(In Thousands)

                                                                                                          Latin
                                                                        Europe                           America                                            2012
                                                                          &         Global                  &         Middle                    2013      Restated
Objective                 Africa       Asia       DCHA         E3       Eurasia     Health    IDEA      Caribbean      East       OAPA          Total      Total

Economic Growth
  Intragovernmental Costs   57,048     31,255           66 109,448        8,162    	–          4,586      41,692        21,343      41,730       315,330     304,285
  Public Costs             600,007    365,411        2,392 694,912      198,514    	–         44,344     270,184     1,021,097     659,212     3,856,073   3,574,365
     Total Program Costs   657,055    396,666        2,458 804,360      206,676    	–         48,930     311,876     1,042,440     700,942     4,171,403   3,878,650
  Intragovernmental         (2,092)    (2,165)         (12) (128,075)    (1,102)   	–           (855)     (1,468)     (524,136)     (5,175)     (665,080) 	(126,154)
     Earned Revenue
  Public Earned Revenue 	–                 (18) 	– (147,224)                  (9) 	–              (7)        (12)          (33) 	–               (147,303) 	(182,112)
     Total Earned Revenue   (2,092)     (2,183)     (12) (275,299)        (1,111) 	–           (862)      (1,480)     (524,169)   (5,175)        (812,383) 	(308,266)
Net Program Costs         654,963     394,483    2,446 529,061          205,565 	–           48,068     310,396       518,271   695,767        3,359,020 3,570,384

Humanitarian Assistance
  Intragovernmental Costs 2,116        22,707        80,682 	–              264 	– 	–                      1,257           228         832       108,086      95,603
  Public Costs              317        35,766     1,340,017   3,814      15,163 	– 	–                     41,970        42,195      28,879     1,508,121   1,258,009
     Total Program Costs  2,433        58,473     1,420,699   3,814      15,427 	– 	–                     43,227        42,423      29,711     1,616,207   1,353,613
  Intragovernmental           (2)        (241)       (6,802) 	–             (48)                            (231)         (139)       (154)       (7,617) 	(5,923)
     Earned Revenue
  Public Earned Revenue 	–                  (2)          (51) 	– 	– 	– 	–                                     (2)           (1)          (1)          (57) 	(206)
     Total Earned Revenue     (2)        (243)        (6,853) 	–        (48) 	– 	–                         (233)         (140)        (155)        (7,674) 	(6,129)
Net Program Costs         2,431        58,230     1,413,846   3,814 15,379 	– 	–                         42,994        42,283       29,556     1,608,533 1,347,484

Operating Unit Management
  Intragovernmental Costs   82,601    18,549      55,934    71,483    16,882       	–          5,140      20,920         6,892      29,999       308,400   173,034
  Public Costs             102,587    57,439      98,176    87,585    35,058       	–         16,688      67,090        37,510      90,322       592,455   504,199
     Total Program Costs   185,188    75,988     154,110 159,068      51,940       	–         21,828      88,010        44,402     120,321       900,855   677,233
  Intragovernmental           (670)     (479)       (673)   (1,540)     (226)      	–           (350)       (462)         (131)       (643)       (5,174) 	(2,992)
     Earned Revenue
  Public Earned Revenue        (15) 	–                (6)      (13)       (2)      	–              (3)       (4)             (1)         (5)          (49) 	(103)
     Total Earned Revenue     (685)     (479)       (679)   (1,553)     (228)      	–            (353)     (466)           (132)       (648)       (5,223) 	(3,095)
Net Program Costs          184,503    75,509     153,431 157,515      51,712       	– 21,475             87,544          44,270     119,673      895,632      674,138
Net Cost of Operations $	1,883,700 $	894,907 $	1,897,857 $	791,882 $	585,822       $	530,610 $	82,926 $	920,990     $	1,472,155 $	1,298,769 $	10,359,618 $	11,491,118




                                                                                                                                                        60

     112          USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM
COSTS BY SEGMENT
The Schedule of Costs by Responsibility Segment                       In the FY 2013 Consolidated Statement of
categorizes costs and revenues by Objectives,                         Net Cost, major responsiblity segments are
Program Areas and Responsibility Segment.                             (i) the Geographic Bureaus and (ii) the Technical
                                                                      Bureaus. The six Geographic Bureaus are: Africa;
A responsibility segment is the component that                        Asia; Europe and Eurasia; Latin America and
carries out a mission or major line of activity, and                  the Caribbean; the Middle East; and the Office
whose managers report directly to top manage-                         of Afghanistan and Pakistan Affairs (OAPA).
ment. The geographic and technical bureaus of                         The four Technical Bureaus are Democracy,
USAID (below) meet the criteria for responsibility                    Conflict and Humanitarian Assistance (DCHA);
segments. These bureaus directly support the                          Economic Growth, Education and the Environ-
Agency goals while the remaining bureaus and                          ment (E3); Global Health; and Innovation and
offices support the operations of these bureaus.                      Development Alliances (IDEA).
To report the full cost of program outputs, the cost
of support bureaus and offices are allocated to the                   Effective in FY 2013 the former Economic
outputs of the geographic and technical bureaus.                      Growth, Agriculture and Trade (EGAT) Bureau
Intra-agency eliminations are allocated to Program                    was reclassified as E3, and in FY 2012 IDEA was
Areas to reflect total costs.                                         added as a Technical Bureau.

 SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENT
 As of September 30, 2013 and 2012
 (In Thousands)

                                                                             Europe                      Latin                                2013             2012
                                                                               &       Global          America &   Middle                  Consolidated      Restated
Objective                        Africa        Asia        DCHA      E3      Eurasia   Health   IDEA   Caribbean    East       OAPA           Total           Total
Peace and Security
	Counterterrorism
		Gross Costs                 $	32,909 $	316              $	380 $	– $	–                $	– $	– $	–                 $	4,410 $	– $	38,015                   $	21,021
		 Less: Earned Revenues               (103) 	(2)         	(1) 	– 	–                   	– 	– 	–                         (6) 	–     (112)                  	(61)
		 Net Program Costs                32,806          314     379 	– 	–                  	– 	– 	–                      4,404 	–    37,903                     20,960
  Combating Weapons of Mass Destruction (WMD)
		Gross Costs                 	– 	–                        166 	–              28,508 	– 	– 	–                     	–         	–              28,674       31,346
		 Less: Earned Revenues 	– 	–                            	(1) 	–                (276) 	– 	– 	–                    	–         	–                (277)     	(295)
		 Net Program Costs          	– 	–                        165 	–              28,232 	– 	– 	–                     	–         	–              28,397       31,051
  Stabilization Operations and Security Sector Reform
		Gross Costs                         3,698       6,558   	– 	–  2,426 	– 	–                              21,692 	–           	–               34,374      45,332
		 Less: Earned Revenues 	(12) 	(51)                      	– 	– 	(13) 	– 	–                                 (119) 	–          	–                 (195)    	(181)
		 Net Program Costs                  3,686       6,507   	– 	–  2,413 	– 	–                              21,573 	–           	–               34,179      45,151
  Counternarcotics
		Gross Costs                 	–                      7   	– 	–  1 	– 	–  131,461 	–                                           44,078         175,547      225,731
		 Less: Earned Revenues 	– 	–                            	– 	– 	– 	– 	– 	(668) 	–                                            	–                 (668)    	(896)
		 Net Program Costs          	–                      7   	– 	–  1 	– 	–  130,793 	–                                           44,078         174,879      224,835
  Transnational Crime
		Gross Costs                             9       6,454    1,127 55 2,818 	– 	– 137                                	–         	–               10,600      14,286
		 Less: Earned Revenues 	– 	(36)                         	(10) 	– 	(13) 	– 	– 	–                                  	–         	–                  (59)    	(67)
		 Net Program Costs                      9       6,418    1,117 55 2,805 	– 	– 137                                	–         	–               10,541      14,219
  Conflict Mitigation and Reconciliation
		Gross Costs                       57,534       13,527    178,420 7,515 33,303 	– 	– 2,178 2,909                               118,196       413,582      350,868
		 Less: Earned Revenues 	(158) 	(76)                     	(950) 	(123) 	(226) 	– 	– 	(14) 	–                                      (438)       (1,985)    	(1,625)
		 Net Program Costs                57,376       13,451    177,470 7,392 33,077 	– 	– 2,164 2,909                               117,758       411,597      349,243
      Total Peace and
      Security                    93,877       26,697      179,131   7,447    66,528 	– 	–               154,667      7,313     161,836      697,496            685,459

                                                                                                                                                  (continued on next page)


                                                                             USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                         113
                                                                                                                                                              61
SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENT (continued)
As of September 30, 2013 and 2012
(In Thousands)

                                                                              Europe                         Latin                                2013            2012
                                                                                &       Global             America &    Middle                 Consolidated     Restated
Objective                       Africa        Asia       DCHA       E3        Eurasia   Health    IDEA     Caribbean     East       OAPA          Total          Total
Governing Justly and Democratically
  Rule of Law and Human Rights
		Gross Costs                     12,610       30,995      3,195      182       44,483 	–           812      148,314      39,533        470         280,594   244,673
		 Less: Earned Revenues             (40)        (183)       (76)      (1)        (239) 	–          (15)         (92)       (235)      (205)         (1,086) 	(1,086)
		 Net Program Costs              12,570       30,812      3,119      181       44,244 	–           797      148,222      39,298        265         279,508   243,587
  Good Governance
		Gross Costs                      1,649       62,720     32,907     5,580      43,188 	– 	–   32,200                    11,726 	–                  189,970   1,985,341
		 Less: Earned Revenues             (10) 	–                (184)      (94)       (225) 	– 	– 	–                        	(13) 	–                       (526) 	(5,085)
		 Net Program Costs               1,639       62,720     32,723     5,486      42,963 	– 	–   32,200                    11,713 	–                  189,444   1,980,256
  Political Competition and Consensus-Building
		Gross Costs                     55,697       19,614     10,839   938          25,643 	– 	–   6,419 34,342                             845         154,337   198,193
		 Less: Earned Revenues            (213)        (120)      (256) 	–              (156) 	– 	– 	(30) 	–                                 (190)           (965) 	(1,115)
		 Net Program Costs              55,484       19,494     10,583   938          25,487 	– 	–   6,389 34,342                             655         153,372   197,078
  Civil Society
		Gross Costs                     39,658       36,747     13,812      132       45,426 	–   2,438 24,929                  95,181     52,446         310,769   362,306
		 Less: Earned Revenues             (10)         (24)      (174)      (3)         (19) 	– 	(44) 	–                         (183)        (3)           (460) 	(1,806)
		 Net Program Costs              39,648       36,723     13,638      129       45,407 	–   2,394 24,929                  94,998     52,443         310,309   360,500
      Total Governing
      Justly and
      Democratically            109,341      149,749     60,063      6,734    158,101 	–           3,191     211,740     180,351     53,363        932,633        2,781,422
Investing in People
   Health
		Gross Costs                     461,707        94,949         14,760    17,975 33,161 534,298 10,379 57,935 163,676 135,058                      1,523,898   2,080,603
		 Less: Earned Revenues 	(10,293) 	(2,088) 	(97) 	(205) 	(289) 	(3,689) 	(187) 	(1,063) 	(558)                          (352)                       (18,821) 	(528,682)
		 Net Program Costs              451,414        92,861         14,663    17,770 32,872 530,609 10,192 56,872 163,118 134,706                      1,505,077   1,551,921
   Education
		Gross Costs                     262,879        89,858         13,355    77,415  6,814 	– 	–          57,920 130,618 108,864                       747,723   680,467
		 Less: Earned Revenues 	(840) 	(585) 	(80) 	(1,530) 	(24) 	– 	– 	(224) 	(456) 	–                                                                   (3,739) 	(78,464)
		 Net Program Costs              262,039        89,273         13,275    75,885  6,790 	– 	–          57,696 130,162 108,864                       743,984   602,003
   Social and Economic Services and Protection for Vulnerable Populations
		Gross Costs                      25,208         8,159         61,482 	–         4,352       1 	–     49,241 437,210  52,469                       638,122   290,314
		 Less: Earned Revenues 	(76) 	(54) 	(480) 	(6,344) 	(28) 	– 	– 	(260) 	(1,172) 	(12,465)                                                          (20,879) 	(12,007)
		 Net Program Costs               25,132         8,105         61,002 	(6,344)   4,324       1 	–     48,981 436,038  40,004                       617,243   278,307
      Total Investing
      in People                 738,585      190,239     88,940     87,311     43,986   530,610   10,192     163,549     729,318    283,574       2,866,304       2,432,231
Economic Growth
  Macroeconomic Foundation for Growth
		Gross Costs                   11,815      7,670 	–                 54,800   10,302 	– 363 5,651 690,634 8,183                                     789,418   545,454
		 Less: Earned Revenues 	(15)             	(42) 	–                 (29,681) 	(52) 	– 	– 	(27) 	(2,860) 	(13)                                       (32,690) 	(49,578)
		 Net Program Costs            11,800      7,628 	–                 25,119   10,250 	– 363 5,624 687,774 8,170                                     756,728   495,876
  Trade and Investment
		Gross Costs                   35,534      15,416 	– 15,995 14,602 	– 2,181 19,773 20,090 38,108                                                   161,699   148,168
		 Less: Earned Revenues 	(160)            	(79) 	– 	(271) 	(93) 	– 	(39) 	(109) 	(69) 	(129)                                                          (949) 	(737)
		 Net Program Costs            35,374      15,337 	– 15,724 14,509 	– 2,142 19,664 20,021 37,979                                                   160,750   147,431
  Financial Sector
		Gross Costs                    7,753      7,522 	–  311,848   12,607 	– 4,585 4,559 15,475 5,396 369,745   581,012
		 Less: Earned Revenues 	(29)             	(49) 	– 	(241,373) 	(70) 	– 	(82) 	(33) 	(52) 	(21) 	(241,709) 	(245,933)
		 Net Program Costs             7,724      7,473 	–   70,475   12,537 	– 4,503 4,526 15,423 5,375 128,036   335,079
  Infrastructure
		Gross Costs                  128,014      17,376 	– 11,982 110,498 	– 5,751 51,160 81,760 371,774 778,315 783,912
		 Less: Earned Revenues 	(15)             	(82) 	– 	(216) 	(356) 	– 	(102) 	(171) 	(64) 	(2,062) 	(3,068) 	(3,083)
		 Net Program Costs           127,999      17,294 	– 11,766 110,142 	– 5,649 50,989 81,696 369,712 775,247 780,829

                                                                                                                                                     (continued on next page)


  114             USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
                                                                                                                                                                  62
SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENT (continued)
As of September 30, 2013 and 2012
(In Thousands)

                                                                                Europe                          Latin                                  2013          2012
                                                                                  &         Global            America &    Middle                   Consolidated   Restated
Objective                        Africa         Asia      DCHA          E3      Eurasia     Health    IDEA    Caribbean     East       OAPA            Total        Total
  Agriculture
		Gross Costs                    301,328       110,055 	– 194,834 17,792 	– 1,257 71,300 33,724 162,404 892,694 805,468
		 Less: Earned Revenues 	(1,394)              	(748) 	– 	(281) 	(119) 	– 	(22) 	(343) 	(101) 	(609) 	(3,617) 	(4,213)
		 Net Program Costs             299,934       109,307 	– 194,553 17,673 	– 1,235 70,957 33,623 161,795 889,077 801,255
  Private Sector Competitiveness
		Gross Costs                     37,210        45,749 716  10,166 65,909 	– 1,378 32,657 104,023 79,348 377,156 348,585
		 Less: Earned Revenues 	(108)                	(247) 	(8) 	(132) 	(321) 	– 	(25) 	(169) 	(299) 	(412) 	(1,721) 	(1,496)
		 Net Program Costs              37,102        45,502 708  10,034 65,588 	– 1,353 32,488 103,724 78,936 375,435 347,089
  Economic Opportunity
		Gross Costs                     24,686        4,359 	– 36,145 10,731 	– 33,415 11,186   24,561  31,378  176,461  186,923
		 Less: Earned Revenues 	(100)                	(30) 	– 	(638) 	(61) 	– 	(592) 	(57) 	(522,372) 	(175) 	(524,025) 	(786)
		 Net Program Costs              24,586        4,329 	– 35,507 10,670 	– 32,823 11,129 (497,811) 31,203 (347,564) 186,137
  Environment
		Gross Costs                    110,714       188,519 1,742 168,591 8,786 	– 	– 115,590 27,622 4,351 625,915 479,129
		 Less: Earned Revenues 	(270)                	(906) 	(4) 	(2,708) 	(39) 	– 	– 	(571) 	(85) 	(21) 	(4,604) 	(2,440)
		 Net Program Costs             110,444       187,613 1,738 165,883 8,747 	– 	– 115,019 27,537 4,330 621,311 476,689
      Total Economic
      Growth                      654,963      394,483      2,446     529,061    250,116 	–          48,068     310,396      471,987    697,500        3,359,020    3,570,384
Humanitarian Assistance
  Protection, Assistance and Solutions
		Gross Costs                 	–                48,380 1,262,919 	– 15,423 	– 	– 43,218 42,423 29,558 1,441,921 1,217,193
		 Less: Earned Revenues 	–                    	(205) 	(6,110) 	– 	(48) 	– 	– 	(233) 	(140) 	(154) 	(6,890) 	(5,587)
		 Net Program Costs          	–                48,175 1,256,809 	– 15,375 	– 	– 42,985 42,283 29,404 1,435,031 1,211,606
  Disaster Readiness



                                                                   T E D
		Gross Costs                          2,433    10,093 157,780 3,814 1 	– 	– 9                                            	–           	–  174,130 133,606



                                                                 DA
		 Less: Earned Revenues 	(2)                  	(38) 	(743) 	– 	– 	– 	– 	–                                                	–           	– 	(783) 	(536)
		 Net Program Costs                   2,431    10,055

                                                             U
                                                       157,037

                                                               P
                                                               3,814 1 	– 	– 9                                            	–           	–  173,347 133,070



                                                         NOT
  Migration Management
		Gross Costs                 	–               	– 	– 	–  3 	– 	– 	–                                                       	–            153  156  2,814
		 Less: Earned Revenues 	–                    	– 	– 	– 	– 	– 	– 	–                                                       	–           	(1) 	(1) 	(6)
		 Net Program Costs          	–               	– 	– 	–  3 	– 	– 	–                                                       	–            152  155  2,808
      Total Humanitarian
      Assistance                     2,431      58,230   1,413,846      3,814     15,379 	– 	–                   42,994       42,283     29,556        1,608,533    1,347,484
Operating Unit Management
  Crosscutting Management and Staffing
		Gross Costs                       1,069    242 	– 	–                 783 	–                        	–  211              	–               1,304           3,609   9,162
		 Less: Earned Revenues 	(14) 	– 	– 	– 	(4) 	–                                                      	– 	–                	–                 (11)            (29) 	(60)
		 Net Program Costs                1,055    242 	– 	–                 779 	–                        	–  211              	–               1,293           3,580   9,102
  Program Design and Learning
		Gross Costs                     37,428  11,613   7,345    36,301   5,098 	–                         9,848  9,537 17,362 39,904 174,436 104,958
		 Less: Earned Revenues 	(153) 	(71) 	(44) 	(296) 	(29) 	–                                          	(175) 	(67) 	(64) 	(233) 	(1,132) 	(561)
		 Net Program Costs              37,275  11,542   7,301    36,005   5,069 	–                         9,673  9,470 17,298 39,671 173,304 104,397
  Administration and Oversight
		Gross Costs                    246,691  64,133 146,765   122,766  46,059 	–                        11,980  28,361 23,673 32,382 722,810 563,113
		 Less: Earned Revenues 	(518) 	(408)              (635) 	(1,256) 	(195) 	–                         	(178) 	(398) 	(68) 	(406) 	(4,062) 	(2,474)
		 Net Program Costs             246,173  63,725 146,130   121,510  45,864 	–                        11,802  27,963 23,605 31,976 718,748 560,639
      Total Operating
      Unit Management             284,503       75,509    153,431     157,515     51,712 	–          21,475      37,644       40,903     72,940         895,632      674,138
Net Cost of Operations        $	1,883,700 $	894,907 $	1,897,857      $	791,882 $	585,822   $	530,610 $	82,926 $	920,990   $	1,472,155 $	1,298,769 $	10,359,618 $	11,491,118




                                                                                                                                                                    63
                                                                                 USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                            115
                    NOTE 18. STATEMENT OF BUDGETARY RESOURCES

                    The Combined Statement of Budgetary Resources        2012. USAID’s total budgetary resources were
                    presents information about total budgetary           $23.8 billion and $23.2 billion for the years ended
                    resources available to USAID and the status of       September 30, 2013 and 2012, respectively.
                    those resources, as of September 30, 2013 and

                    A. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED:
                     APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
                     (In Thousands)

                                                                                   2013                       2012
                                                                                                           (Restated)
                     Category A, Direct                                        $	1,607,893                $	1,405,504
                     Category B, Direct                                            10,080,639                 11,256,372
                     Category A, Reimbursable                                         39,356                     42,406
                     Category B, Reimbursable                                        524,617                    589,811
                     Total                                                     $	12,252,505               $	13,294,093



                    B. BORROWING AUTHORITY,                              D. LEGAL ARRANGEMENTS
                    END OF PERIOD AND TERMS OF                           AFFECTING THE USE OF
                    BORROWING AUTHORITY USED:                            UNOBLIGATED BALANCES:
                    The Agency had $2.7 million in borrowing             The “Consolidated Appropriations Act” signed
                    authority in FY 2013 and $0 in borrowing             into law as Public Law 112-74 provides USAID
                    authority in FY 2012. Borrowing authority is         extended authority to obligate funds. USAID’s
                    indefinite and authorized under the Federal Credit   appropriations have consistently provided
                    Reform Act of 1990 (Title XIII, Subtitle B, P.L.     essentially similar authority, now known as
                    101-508). It is used to finance obligations during   “7011/511” authority. Under this authority
                    the current year, as needed.                         funds shall remain available for obligation for an
                                                                         extended period if such funds are obligated within
                    C. PERMANENT INDEFINITE                              their initial period of availability. Any subsequent
                    APPROPRIATIONS:                                      recoveries (deobligations) of these funds become
                    USAID has permanent indefinite appropriations        unobligated balances that are available for
                    relating to specific Federal Credit Reform Program   reprogramming by USAID (subject to OMB
                    and Liquidating appropriations. USAID is autho-      approval through the apportionment process).	
                    rized permanent indefinite authority for Federal     	
                    Credit Reform Program appropriations for subsidy
                                                                         E. UNPAID OBLIGATIONS:
                    reestimates and Federal Credit Reform Act of
                    1990. At year-end FY 2013, there is $1.9 billion     Unpaid Obligations for the periods ended
                    in availability related to Federal Credit Reform     September 30, 2013 and 2012 were $18.6 billion
                    Program and Liquidating appropriations.		            and $18.3 billion, respectively.			
                    			                                                  		




116   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
                                                                                                                           64
F. DIFFERENCE BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE U.S. GOVERNMENT:

The reconciliation between the Statement of                        Budget, occurs after publication of these financial
Budgetary Resources and the Budget of the U.S.                     statements. The USAID Budget Appendix can be
Government (Budget) is presented below. This                       found on the OMB website (http://www.white-
reconciliation is not as of September 30, 2013                     house.gov/omb/budget) and will be available in early
because submission of the Budget for FY 2015,                      February 2014.
which presents the execution of the FY 2013



DIFFERENCE BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND
THE BUDGET OF THE U.S. GOVERNMENT
(In Thousands)

                                                                                                                Distributed
                                                                            Budgetary                           Offsetting
                                2013                                        Resources        Obligations         Receipts      Net Outlays
Combined Statement of Budgetary Resources                                   $	23,247,701     $	13,294,093       $	(923,914)    $	10,700,013
Difference #1: Parent Activity Reported in U.S. Budget by USAID                 8,230,939        6,315,809      	–                    6,425,900
Difference #2: Child Activity Reported in U.S. Budget by Child Agencies          (995,597)        (635,434)     	–                    (503,739)
Difference #3: Reported in the SBR but excluded from the U.S. Budget                1,111    	–                 	–                       (8,856)
Difference #4: Parent/Child Reporting Differences                                 (24,588)         (24,588)     	–             	–
Difference #5: Reporting Difference Between the SBR and U.S. Budget                (6,205)          (1,454)     	–                     202,199
Difference #6: Credit Financing and Suspense                                	–               	–                 	–             	–
Budget of the U.S. Government                                               $	30,453,361     $	18,948,426       $	(923,914)    $	16,815,518




                                                                                                                                            65

                                                                          USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION            117
                    NOTE 19. RECONCILIATION OF
                    NET COST OF OPERATIONS TO BUDGET

                    USAID presents the Consolidated Statement of                      tion of proprietary and budgetary information in
                    Net Cost using the accrual basis of accounting.                   a way that helps users relate the two.” The focus of
                    This differs from the obligation-based measurement                this presentation is to reconcile budgetary net obli-
                    of total resources supplied, both budgetary and                   gations to the net cost of operations. The objective
                    from other sources, on the Combined Statement                     of this information is to categorize the differences
                    of Budgetary Resources. The Federal Financial                     between budgetary and financial (proprietary)
                    Accounting Standard No. 7 requires “a reconcilia-                 accounting.


                     RECONCILIATION OF OBLIGATIONS INCURRED TO NET COST OF OPERATIONS
                     For the Years Ended September 30, 2013 and 2012
                     (In Thousands)

                                                                                                          2013                2012
                                                                                                                           (Restated)
                     Resources Used to Finance Activities:
                        Budgetary Resources Obligated
                            Obligations Incurred                                                      $	12,252,505        $	13,294,093
                            Spending Authority From Offsetting Collections (FY 2012 includes Change      (1,524,943)          (1,021,625)
                               in Unfilled Customer Orders previously broken out in the SBR)
                            Change in Unfilled Customer Orders
                            Downward Adjustments of Obligations                                            (639,888)           (472,020)
                            Offsetting Receipts                                                            (381,293)           (923,914)
                        Net Obligations                                                                   9,706,381          10,876,534
                        Other Resources Used to Finance Activities                                          41,973               29,994
                        Resources Used to Finance Activities                                              9,748,354          10,906,528
                        Resources Used to Finance Items Not Part of Net Cost of Operations                1,038,657           1,029,033
                     Total Resources Used to Finance Net Cost of Operations                              10,787,011          11,935,561

                     Components of the Net Cost of Operations:
                        Components of Net Cost of Operations That Will Require                             (221,236)            (59,980)
                          or Generate Resources in Future Periods
                        Components of Net Cost of Operations That Will Not Require                         (206,157)           (384,463)
                          or Generate Resources
                     Net Cost of Operations                                                           $	10,359,618        $	11,491,118




                                                                                                                                      66
118   USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
NOTE 20. RESTATEMENT OF FY 2012 PRINCIPAL FINANCIAL
STATEMENTS (IN THOUSANDS)
The FY 2012 financial statements have been restated         Statement of Changes in Net Position:
to reflect the correction of material misstatements         Decrease to Cumulative Results of Operations
related to advances, that arose because of incorrect        ($1.8 million).
interpretation of account balances and account
relationships. Based on this misinterpretation, several     Statement of Net Cost: Increase to Net
adjustments were recorded in the general ledger.            Cost of Operations ($347.8 million).
Other FY 2012 adjustments relating primarily to             Statement of Budgetary Resources: Marginal
Fund Balance With Treasury and obligation status            Increase to Outlays ($65.6 million Gross); and
accounts were inadequately supported. In FY 2013,           marginal Decrease to Unpaid Obligations,
the erroneous and unsupported adjustments were              End of Year ($65.6 million Gross).
reversed, and the financial statements restated.
The effect of the restatement was:                          The following illustrative Schedule of Summary of
                                                            Changes details the impact to the aforementioned
Balance Sheet: Decrease Advances ($294.7                    statements:
million) and Fund Balance with Treasury
($53.1 million); and Decrease to Unexpended
Appropriations ($345.9 million).	


 SCHEDULE OF SUMMARY OF CHANGES
 Pro Forma Balances As of September 30, 2012
 (In Thousands)

                                                            2012                  Effect:              2012
                                                          As Stated        Increase/(Decrease)       Restated
 ASSETS:
    Fund Balance with Treasury                            $	28,999,266        $	(53,097)           $	28,946,169
    Advances                                                   752,464          (294,657)               457,807
 Total Change in Assets                                   $	29,751,730        $	(347,753)          $	29,403,977

 NET POSITION:
   Unexpended Appropriations                              	21,631,982         	(345,873)           	21,286,109
    Cumulative Results of Operations                         3,102,471             (1,880)             3,100,591
 Total Change in Net Position                             $	24,734,453        $	(347,753)          $	24,386,700

 Net Cost of Operations:                                  	11,143,365         	347,753             	11,491,118
 Total Change in Net Cost Operations                      $	11,143,365        $	347,753            $	11,491,118

 Budgetary Resources:                                     	–                  	–                   	–
 Total Resources                                          $	–                 $	–                  $	–

 Status of Budgetary Resources:                           	–                  	–                   	–
 Total Budgetary Resources                                $	–                 $	–                  $	–

 Change in Obligated Balance:
   Outlays (Gross) (-)                                    	(11,987,522)       	(65,596)            	(12,053,118)
 Total Change in Obligated Balance                        $	(11,987,522)      $	(65,596)           $	(12,053,118)

 Obligated Balance, End of Year
   Unpaid Obligations, End of Year (Gross)                	18,339,378         	(65,596)            	18,273,782
 Total Change in Unpaid Obligations, End of Year          $	18,339,378        $	(65,596)           $	18,273,782
                                                                                                                            67
                                                                USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION   119
FINANCIAL SECTION


REQUIRED
SUPPLEMENTARY
INFORMATION




      A KenGen worker tests a unit at the Olkaria geothermal
      plant in Kenya, one of the initial six Power Africa focus
      countries. Power Africa aims to unlock the substantial
      wind, solar, hydropower, natural gas, and geothermal
      resources in the region to enhance energy security,
      reduce poverty, and advance economic growth.
      PHOTO: ROBERTO SCHMIDT / AFP
        STATEMENT OF BUDGETARY
        RESOURCES

 REQUIRED SUPPLEMENTARY INFORMATION: COMBINING SCHEDULE OF BUDGETARY RESOURCES
 For the Year Ended September 30, 2013
 (In Thousands)

                                                                                 Assistance                                                             Assistance
                                                                     Civilian   for Europe,    Assistance                  International   Economic      for New
                                                                  Stabilization Eurasia and    for Eastern   Development     Disaster       Support    Independent    Child      Credit
                                     Recovery Act     Operating     Initiative  Central Asia     Europe       Assistance    Assistance       Fund         States     Survival   Financing     Other     Parent Fund   Combined Total

                                        302            1000          305           306           1010           1021          1035          1037         1093        1095

Budgetary Resources:
   Unobligated Balance Brought
   Forward, October 1                $	8            $	551,907 $	5,850          $	220,144 $	5,492             $	946,978 $	139,029 $	4,958,743 $	14,048 $	28,534 $	1,878,293 $	844,418 $	360,164 $	9,953,608
   Adjustment to Unobligated
   Balance Brought Forward,
   October 1 (+ or -)                	–             	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	– 	– 	–
   Unobligated Balance Brought
   Forward, October 1, as Adjusted          8          551,907       5,850        220,144         5,492         946,978        139,029     4,958,743     14,048       28,534    1,878,293    844,418     360,164        9,953,608
   Recoveries of Prior Year Unpaid
   Obligations                       	–                213,672       1,426           7,899      12,419           40,007         80,630      181,595       9,882       13,573          200     12,438       66,147          639,888
   Other Changes in Unobligated
   Balance (+ or -)                  	(8)           	(7,826) 	–                	(35,417)        33,123 	(76,982)               123,414 	(115,095) 	(30,067) 	(34,768) 	– 	(319,655)                      188,364 	(274,917)
   Unobligated Balance from Prior
   Year Budget Authority, Net        	–                757,753       7,276        192,626       51,034          910,003        343,073     5,025,243 	(6,137)           7,339   1,878,493    537,201     614,675       10,318,579
   Appropriations (Discretionary and
   Mandatory)                        	–              1,279,251 	–              	– 	–                           2,392,375    1,550,395      5,914,820 	– 	– 	–                                827,367 	–                11,964,208
   Borrowing Authority
   (Discretionary and Mandatory)
   (Note 11)                         	–             	– 	–                      	– 	–                         	– 	– 	– 	– 	–                                                         2,696 	– 	–                              2,696
   Contract Authority (Discretionary
   and Mandatory)                    	–             	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	– 	– 	–
   Spending Authority from
   Offsetting Collections
   (Discretionary and Mandatory)     	–                 34,303       3,465             300 	546                 311,339             467 	(426,087) 	– 	–                         185,173    1,189,200    226,237        1,524,943
Total Budgetary Resources            $	–            $	2,071,307 $	10,741       $	192,926 $	51,580            $	3,613,717 $	1,893,935 $10,513,976 $	(6,137) $	7,339 $	2,066,362 $2,553,768 $	840,912 $23,810,426


Status of Budgetary Resources:
   Obligations Incurred:             	–              1,587,334       2,782        183,414       47,817         1,302,722    1,483,774      5,386,801 	(14,851) 	(31,113)         204,257    1,514,962    584,606       12,252,505
       Unobligated Balance, End
       of Year:                      	–             	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	– 	– 	–
            Apportioned              	–                380,768       7,959           9,073        5,224        2,290,197       410,090     4,849,822      6,985       29,466     222,522     439,314     187,801        8,839,221
            Unapportioned            	–                103,205 	–                      439       (1,461)         20,798              71     277,353       1,729         8,986   1,639,583    599,492       68,505       2,718,700
   Total Unobligated Balance, End
   of Year                           	–                483,973       7,959           9,512        3,764        2,310,995       410,161     5,127,175      8,713       38,452    1,862,105   1,038,806    256,306       11,557,921

Total Budgetary Resources            $	–            $	2,071,307 $	10,741       $	192,926 $	51,580            $	3,613,717 $	1,893,935 $	10,513,976 $	(6,137) $	7,339 $2,066,362 $2,553,768 $	840,912                   23,810,426

                                                                                                                                                                                                          (continued on next page)




                                                                                                                                                                                                                      68
                                                                                                             USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION                                                123
 REQUIRED SUPPLEMENTARY INFORMATION: COMBINING SCHEDULE OF BUDGETARY RESOURCES (continued)
 For the Year Ended September 30, 2013
 (In Thousands)

                                                                                   Assistance                                                              Assistance
                                                                       Civilian   for Europe,    Assistance                  International    Economic      for New
                                                                    Stabilization Eurasia and    for Eastern   Development     Disaster        Support    Independent    Child      Credit
                                       Recovery Act     Operating     Initiative  Central Asia     Europe       Assistance    Assistance        Fund         States     Survival   Financing     Other     Parent Fund   Combined Total

                                          302            1000          305           306           1010           1021          1035           1037         1093        1095

Change in Obligated Balance:
   Unpaid Obligations, Brought
   Forward, October 1 (Gross)          $	–            $	744,559 $	3,226          $	841,685 $	21,602            $	5,024,025 $	1,041,258 $	9,104,619 $	34,827 $	39,692 $	1,300 $	702,805 $	779,780 $	18,339,378
   Adjustment to Unpaid Obligations,
   Start of Year (Net) (+ or -)      	–               	(144,257)         100         11,380 	(64,221)               48,093 	(34,392)           335,465 	(62,334) 	(11,733) 	(704) 	(142,993) 	– 	(65,596)
   Obligations Incurred                	–              1,587,334       2,782        183,414       47,817         1,302,722    1,483,774       5,386,801 	(14,851) 	(31,113)         204,257    1,514,962    584,606       12,252,505
   Outlays (Gross) (-)                 	–             	(1,395,445) 	(3,217) 	(480,313) 	12,342                 	(2,331,810) 	(1,087,990) 	(4,300,253)       86,669      129,859 	(200,786) 	(1,174,371) 	(571,723) 	(11,317,038)
   Actual Transfers, Unpaid
   Obligations (Net) (+ or -)          	–             	– 	–                      	– 	–                         	– 	–                             32,120 	– 	– 	– 	– 	–                                                         32,120
   Recoveries of Prior Year Unpaid
   Obligations (-)                     	–             	(213,672) 	(1,426) 	(7,899) 	(12,419) 	(40,007) 	(80,630) 	(181,595) 	(9,882) 	(13,573) 	(200) 	(12,438) 	(66,147)                                                   (639,888)
       Unpaid Obligations, End
       of Year                         	–                578,519       1,465        548,267 	5,121               4,003,023    1,322,020      10,377,157     34,429      113,132        3,867    887,965     726,516       18,601,481
       Uncollected Payments:
       Uncollected Payments from
       Federal Sources, Brought
       Forward                         	–             	(11,264) 	–               	– 	(35)                                38 	(203) 	– 	(39) 	(1,006)                                      35 	(27,971) 	– 	(40,445)
       Adjustment to Uncollected
       Payments, Federal Sources,
       Start of Year, (+ or -)         	–             	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	– 	– 	–
       Change in Uncollected
       Payments from Federal
       Sources (+ or -)                	–                   3,253 	–             	– 	–                         	– 	– 	(2,156) 	– 	– 	(35) 	(27,997) 	– 	(26,935)
       Actual Transfers, Uncollected
       Payments, Federal Sources
       (Net) (-)                     	–               	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	– 	– 	–
       Uncollected Payments,
       Federal Sources, End of
       Year (-)                        	–             	(8,011) 	–                	– 	(35)                                38 	(203) 	(2,156) 	(39) 	(1,006) 	– 	(55,968) 	– 	(67,380)

Budget Authority and
Outlays, Net:
   Budget Authority, Gross
   (Discretionary and Mandatory)       	–              1,313,554       3,465             300 	546                2,703,714    1,550,861       5,488,733 	– 	–                       187,868    2,016,568    226,238       13,491,847
   Actual Offsetting Collections
   (Discretionary and Mandatory) (-) 	–               	(37,557) 	(3,465) 	(300) 	(546) 	(466) 	(467) 	(35,009) 	– 	– 	(185,137) 	(1,153,323) 	(5,152)                                                                     (1,421,422)
   Change in Uncollected Customer
   Payments from Federal Sources
   (Discretionary and Mandatory)
   (+ or -)                       	–                        3,254 	–             	– 	–                         	– 	– 	(2,156) 	– 	– 	(35) 	(27,998) 	– 	(26,935)
   Anticipated Offsetting Collections
   (Discretionary and Mandatory)
   (+ or -)                           	–              	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	– 	– 	–
   Budget Authority, Net
   (Discretionary and Mandatory)       $	–            $	1,279,251 $	–            $	– $	–                       $	2,703,248 $	1,550,394 $	5,451,568 $	– $	– $	2,695 $	835,248 $	221,086 $	12,043,490

   Outlays, Gross (Discretionary and
   Mandatory)                        	–                1,395,445       3,217        480,313      (12,342)        2,331,810    1,087,990       4,300,253    (86,669) 	(129,859)      200,786    1,174,371    571,723       11,317,038
   Actual Offsetting Collections (-)
   (Discretionary and Mandatory)       	–             	(37,557) 	(3,465) 	(300) 	(546) 	(466) 	(467) 	(35,009) 	– 	– 	(185,137) 	(1,153,323) 	(5,152)                                                                     (1,421,422)
   Outlays, Net (Discretionary and
   Mandatory)                          	–              1,357,888 	(248)             480,013      (12,888)        2,331,344    1,087,523       4,265,244     86,669 	(129,859)        15,649      21,048     566,571        9,895,616
   Distributed Offsetting Receipts (-) 	–             	– 	–                      	– 	–                         	– 	– 	– 	– 	– 	– 	(381,293) 	– 	(381,293)
Agency Outlays, Net
(Discretionary and Mandatory)          $	–            $	1,357,888 $	(248) $	480,013 $	(12,888) $	2,331,344 $	1,087,523 $	4,265,244 $	(86,669) $	(129,859) $	15,649 $	(360,245) $	566,571 $	9,514,323




                                                                                                                                                                                                                         69
        124                USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
MAJOR FUNDS                                                 OTHER FUNDS (continued)
Operating Funds                                             Program Funds
1000 Operating Expenses of USAID                            0305 Civilian Stabilization Initiative
Program Funds                                               1012 Sahel Development Program
1010 Special Assistance Initiative                          1014 Africa Development Assistance
1021 Development Assistance                                 1015 Complex Crisis Fund
1035 International Disaster Assistance                      1023 Food and Nutrition Development Assistance
1037 Economic Support Fund                                  1024 Population and Planning & Health Development Assistance
1093 Assistance for the N.I.S. of the Former Soviet Union   1025 Education and Human Resources, Development Assistance
1095 Child Survival and Disease Programs Funds              1027 Transition Initiatives
                                                            1028 Global Fund to Fight HIV / AIDS
                                                            1029 Tsunami Relief and Reconstruction Fund
CREDIT FINANCING FUNDS                                      1033 HIV / AIDS Working Capital
                                                            1038 Central American Reconciliation Assistance
4119 Israel Guarantee Financing Fund                        1040 Sub-Saharan Africa Disaster Assistance
4137 Direct Loan Financing Fund                             1096 Latin America / Caribbean Disaster Recovery
4266 DCA Financing Fund                                     1500 Demobilization and Transition Fund
4343 MSED Guarantee Financing Fund                          Trust Funds
4344 UE Financing Fund                                      8342 Foreign National Employees Separation Liability Fund
4491 Egypt Guarantee Financial Fund                         8502 Technical Assistance – U.S. Dollars Advance from Foreign
4493 Loan Guarantees to Tunisia – Financing Account              Governments
                                                            8824 Gifts and Donations
                                                            Revolving Funds
CREDIT PROGRAM FUNDS
                                                            4175 Property Management Fund
                                                            4513 Working Capital Fund
0301 Israel Program Fund
                                                            4590 Acquisition of Property, Revolving Fund
0304 Egypt Program Fund
0401 UE Program Fund
0409 Loan Guarantees to Tunisia Program Account
                                                            ALLOCATIONS TO OTHER AGENCIES
1264 DCA Program Fund
4103 Economic Assistance Loans – Liquidating Fund           1010 Special Assistance Initiatives
4340 UE Guarantee Liquidating Fund                          1021 Development Assistance
4341 MSED Direct Loan Liquidating Fund                      1035 International Disaster Assistance
                                                            1037 Economic Support Fund
                                                            1093 Assistance for the N.I.S. of the Former Soviet Union
OTHER FUNDS                                                 1095 Child Survival and Disease Program Funds

Operating Funds
0300 Capital Investment Fund (CIF)
                                                            ALLOCATIONS FROM OTHER AGENCIES
0302 Capital Investment Fund – Recovery Act
0306 Assistance for Europe, Eurasia, and Central Asia       0113 Diplomatic and Consular Programs, State
0535 Acquisition and Maintenance of Buildings Abroad        1030 Global HIV / AIDS Initiative - Carryover
1007 Operating Expenses of USAID Inspector General
                                                            1031 Global Health and Child Survival
1036 Foreign Service Retirement and Disability Fund
                                                            1121 Democracy Fund
1099 Fines, Penalties and Forfeitures – N.O.E.
1435 Miscellaneous Interest Collections                     1154 Andean Counterdrug Initiative (ACI)
3220 Miscellaneous Recoveries                               2278 Commodity Credit Corporation
                                                            2750 Millennium Challenge Corporation




                                                                                                                            70

                                                                USAID FY 2013 AGENCY FINANCIAL REPORT | FINANCIAL SECTION   125
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
